I                                  u.s.   DEPARTMENT OF THE INTERIOR.

                               f



I     J       I II    I I
l:r       ~. . JUUeJ IfJ-'';

Department
Earns Unqualified
Audit Opinion,
. ut Audit
    ighIights the
  eed to Improve
(page 3)




 aw Enforcem ent
    eview eads to
    epartmen . .Wi de
    ssessment
(page 13)
       Message from the Inspector General




              Over the past year, the GIG has reorganized and re-engineered its internal operations to
      provide quality products and services in areas that are ofthe highest priority to the Department and
      provide the greatest return on our investment. The new Administration has emphasized increased
      accountability in the Government's financial andmanagement operations, major management refonns in
      Government organizations, and results from program activities. This, in tlll"TI, translates into greater
      demands on the OIG conununity, as well as greater opportunities for Interior's OIG to playa more
      significantrole in promoting mtegrity and accountability in the Department's programs and
      operations. The OIG is evolving toward the highest risk and highest priority areas, making the most
      valuable recommendations and, then following up on these recommendations to ensure that they have
      been implemented appropriately and have the intended effect.

               TP.is is adramatic shift in thinking and operation, since the implementation ofaudit
      recommendations is, for the most part, out ofour control. We believe, however, that the right approach
      is to work collaboratively with the Department to exact the greatest and most valuable long-tenn
      benefit. While it may take several years to actually measure the impact ofour recommendations, our
      new Quality Assurance and Follow-up Unit has alreadybegun the process oftracking and verifying
      recommendations that the Department reports as implemented. Once sufficient infonnation is obtained
      and recommendations have been prioritized, we plan to begin a more strategic and aggressive approach
      to audit follow-up.
';
,;
..!
               Specifically, we win increase foHow-up ofreported auditrecommendations to verify
      implementation, and begin the process ofgauging the outcome(s) ofour Audit work and the
      Department's efforts to implement recommendations. Many OIGs have removed themselves from any
      activity that goes beyond identification ofproblems and simply making recommendations. VVhile we
      cannot force implementation of recommendations upon the Department, we believe that we have a
      responsibility to assist t.ne Department in effecting the intended results ofour recommendations. Our
      participation in the implementation process will enhance flexibility, and should, in turn, better ensure that
      the results we envision are achieved.




            Semiannual Report to the Congress: October 1, 2000·'- March 31, 2001
                                                                                                         -......,



                                                                                                                                                                                                      Contents



        We will also increase consultative services for our customers. The GIG is evolving from a
                                                                                                                                                                                                            Page
reactive, problem-detecting culture to a more proactive, problem-solving, solution-oriented
organization. One ofour primary objectives is to institute more short-term, quick-response                          Statistical Highlights                                                             0         ii
approaches to respond more effectively to Congressional and DOl management requests and to                          Introduction                                                                                 1
independently and expediently assess areas ofconcern, usually within a 60-90 day period. Using an                      OIG Organization and Mission                                                              2
                                                                                                                    Significant Audit Activities and Investigations                                             .3
array oftechniques, our staffcan identify actions that Departmental management can take to                             Department of the Interior                                                                3
improve operations CLTld meet program objectives in a more effective and, iffeasible, a less costly                    Bureau of Indian Affairs                                                                  6
manner.                                                                                                                Bureau of Land Management                                                                9
                                                                                                                       Bureau of Reclamation                                                                   12
         This approach has greatly enhanced communication and coordination with the Department and the                 Fish and Vvildlife Service                                                              13
Bureaus and has facilitated more collaborative resolutions ofproblems. We hope to continue building a                  Insular Areas                                                                           14
                                                                                                                       Minerals Management Service                                                             17
strong foundation to address and solve some ofthe more difficult internal control and management                       National Park Service       ·                                                           18
weaknesses within the Department, while always maintaining our independence and never surrenduring our                 Office of Surface Mining Reclamation and Enforcement.                      :            19
ability to detect and prevent fraud, waste and abuse.
                                                                                                                    Appendices
                                          Ev&-E-\,
                                               Earl E. Devaney
                                                                                                                    1 - Summary of Audit Activities from October 1,2000 through March 31,2001
                                                                                                                    2 - Reports Issued or Processed and Indirect Cost Proposals Negotiated
                                                                                                                                                                                                                20

                                                                                                                         During the 6-Month Period ended March 31, 2001                                         21
                                               Inspector General                                                         - Internal Audits                                                                      21
                                                                                                                         - Contract and Grant Audits                                                            23
                                                                                                                         - Single Audits                                                                        24
                                                                                                                         - Indirect Cost Proposals                                                              28
                                                                                                                    3 - Monetary Impact ~f Audit Acti:rities from October 1, 2000 through March 31, 2001 34
                                                                                                                    4 - Non-Federal Fundmg Included In Monetary Impact of Audit Activities
                                                                                                                         During the 6-Month Period ended March 31, 2001                                        .35
                                                                                                                    5 - Audit Resolution Activities                                                             36
                                                                                                                         - Table I - Inspector General Reports with Questioned Costs                            36
                                                                                                                         - Table II - Inspector General Reports with Recommendations that
                                                                                                                             Funds be put to Better Use                                                         37
                                                                                                                         - Table III - Inspector General Reports with Lost or Potential Additional Revenues .. .38
                                                                                                                    6 - Summary of Reports over 6 Months Old Pending Management Decisions                       39
                                                                                                                         - Internal Audits                                                                      39
                                                                                                                         - Contract and Grant Audits                                                            42
                                                                                                                         - Single Audits                                                                        44
                                                                                                                    7 - Summary of Internal Reports over 6 Months Old Pending Corrective Action                .48
                                                                                                                    8 - Statutory and Administrative Responsibilities                                           53
                                                                                                                    9 - Cross-References to the Inspector General Act..                                         54




      Semiannual Report to the Congress: October 1, 2000 - March 31, 2001                                            Semiannual Report to the          Congres~:     October 1, 2000 - March 31, 2001
                                                                                                                                                               1
                                                                                                                                                                                                                                                                Introduction
Statistical Highlights


Audit Activities and Impacts
  Reports Issued                                                                                                                           35
   _Internal Audits                                                                                                               24
    _ Contract and Grant Audits                                                                                                   11
  Single Audits Processed                                                                                                               114                                                                           , Mission  <,,: ;',<',.';
                                                                                                                                                                                             :;:;:--   <i,~.::, :ii~:.>;i,'..:.'. "'.fX;~<:       ,>
  Indirect Cost Proposals Negotiated                                                                                                     160
  Total Monetary Impact                                                                                                                $20.4              The mission.c;\((tb~·Qni~~'oti~;pectorGen~ral (OIG) i~ i~;P~~IUot'iYe,!~~llenCein the
                                                                                                                                                                      • ?i<':. " ''ii1:;.,:   •. ," ": ii~
                                                                                                                                                                                                       . -', ,', "" :.":. "',',', ."                   ~"i""          .".''''''~.'

    (Dollar Amounts in Millions)                                                                                                                    programs, operatlo~s'~~ir.an~gementofthe Department ofthe Interi~J~OI)!.:.
     _Questioned Costs                                                                                                           $10.0                             .. '.' ,i? ' !.;¥£       .                                        r:;'fld}~:,,,.
     _Recommendations that funds be put to Better Use                                                                      ······$10.4                                         ',:l:-1~ji"                                                                        ~il};:;;:
                                                                                                                                                                                                                                                               ,f$'


    Internal Audit Recommendations Made                                                        ··················                         120
                                                                                                                                                                                                                                                                \t:~:o~'l,:~ ',','
    Internal Audit Recommendations Resolved                                                                                                97
                                                                                                                                                             The dIG is respon~                                                                                risl{S' and .
                                                                                                                                                    vnlnerabilities t~a.~directlYl                                                                              to ilccompiish its
 Investigative Activities and Impacts                                                                                                               lllission. We are ...~quiredto k                                                                         curretltlyinforllled
    Cases Closed this Period    i••.•••••...•••••••••.•••••••••.•.••••••....•••• •.•.••••••..•••••.•.•.••••..•••••.••.•..••••.•.•• 109                                                                                                                           . ,', .,:.:;
                                                                                                                                                                                                                                                               ,A~


   New Cases Opened                                                                                                                105              about probleni~iiJIddeficiencies.                                                                       ental programs and
        .         l'   lIn   ..  R
    Hotlme Comp alllts qmnes ecelve      .    d                                                                                  . 903              operations.. Eff~ctive impleInent~                                                                   . c's demand'for greater
    Indictments/Infonnations                                                                                                        12              acconntability-intne administrati<lJWi'Go                                                         rations and the'llemand for
                                                                                                                                                    programs thatwork better,cos:;t,i1s,.an.d                                                     ns want.               . ' ..

     ~ 0:~;~ : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : : i~ :~i:'
                                                                                                                                                                                   ..... -,' ',",'              "~.?-

                                                                                                                                                                       "'~T,                                      ~




      _Probation/Supervised Release                                                                                            828 mos.
      - Commumty 'S     '
                      ervIce        ~                       ····..··························                                    . 250~.
     Criminal Referrals           ,                                                                                                   30
     Criminal Judgements/Restitutions                                                                                          $876,803
     Criminal Declinations                                                                                                             27
                 . A'
     Admini·strahve    chons                                                                                                         . 48
     Civil Referrals                                                                                                                    5
     Civil Recoveries                                                                                                       $154,278,500
     Civil Declinations                                                                                                                 1

     ~~:~~:~~.:::::::::::::::::::::::::::::::::::..::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::: ~3
      Resignations
      Employee Suspensions (Totaling 472 days)                                                                                               21
      Reprimands/Counseling                                                                                                                  12
      General Policy Actions                                                                                                                  4
      Adlllinistrative Recoveries/Restitutions (Totaling $14,985)                                                                             2
      Reassignments and Transfers                                                                                                             1




                                                                                                                                                         Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
       Semiannual Report to the Congres~: October 1, 2000                                                           March 31, 2001                                                       1
                                                                         II
Significant Audit Activities and Investigations                                                               Significant Audit Activities and Investigations
Department of the Interior                                                                                                                                Department of the Interior

                               •       Security and General Controls Over Financial
                                       Management Systems - Security and general                      Suggestions to               We identified opportunities for the Department ofHawaiian
                                       controls over the DOl's financial management systems           Improve              Home Lands (DHHL) to improve controls related to the collection of
                                       were not adequately established or were not operating          Collections          delinquent loans and property taxes. We noted that the DHHL had not
                                       effectively to ensure that sensitive or critical financial     Made to the          taken sufficient action to collect delinquent balances totaling $22 million
                                       data or systems were safeguarded.                              Department of        on 600 loans or establish procedures to ensure the collection of
                                                                                                      Hawaiian Home        $1 million in property taxes it had committed to pay on behalfof
                               •        Deferred Maintenance Management and                                                lessees. To address these issues, we advised the DHHL that it should:
                                                                                                      Lands
                                        Reporting - Amounts reported for deferred
                                        maintenance were not adequately supported.                                                     •   lmplement procedures, as provided in its regulations, to
                                                                                                                                           collect payment for delinquent loans, such as garnishing
                                The progress and success ofthe DOl's planned improvements                                                  wages and instituting repayment agreements for
                        in these areas will be assessed during the audits ofthe fiscal year 2001                                           delinquent borrowers.
                        financial statements.
                                                                                                                                       •   lmplement procedures to monitor the payment ofreal
                                 At the request ofSenator Strom Thurmond, lG Program                                                       property taxes by Hawaiian Home Land lessees and
Review of Law
                        Integrity and Audit staffteamed to review the Firefighter and Law                                                  ensure that the lessees either pay the taxes or arrange
Enforcement
                        Enforcement Retirement Team (FLERT) operated by the Bureau of                                                      with the DHHL to repay advance payments made on
Retirement Process
                        Land Management on behalfofthe Department. FLERT processes                                                         their behalf.
Cites Room for
Improvement             applications for the certification ofspecial retirement coverage for DOl
                        firefighters and law enforcement officers.

                                Anumber ofadministrative weaknesses were identified in the            Payroll/                    The DOl's National Business Center's (NBC) policies and
                        assessment. Recommendations to improve the efficiency ofFLERT                 Personnel            procedures generally provided for accurate and timely processing of
                        were also provided. A Department task force was formed with                   Transactions         personnel and payroll transactions in compliance with applicable laws
                        participation from all ofthe affected Bureaus with law enforcement            Processed            and regulations. However, we found that opportunities exist to
                        officers or firefighters. Progress has been made to address the               Accurately and       improve the efficiency and effectiveness ofNBC's operations and to
                        deficiencies. lG staffwill re-assess FLERT in the near future to              Timely, but          decrease risk ofunauthorized access to, modification of, and disclosure
                        determine ifthe unit is operating more efficiently.                           Needed               ofpersonnel and payroll data. Based on our audit, NBC began or
                                                                                                      Improvements         completed:
                                                                                                      in Operations
Trust Fund                       The fiscal year 1999 and 1998 financial statements for trust
                                                                                                      and Security                     •   Developing a strategic plan for its operations,
Financial                funds held by the DOl for Indian tribes and individual Indians were not
                                                                                                      Identified
Statement Audit          accurate. As a result, the certified public accounting firm that conducted
                                                                                                                                       •   Programming all required functions in the payroIIl
Continues to             the audit qualified its opinion because ofirreconcilable differences of
                                                                                                                                           personnel system,
Report Problems          about $35 million between recorded cash balances and the balances
                         reported by the U.S. Treasury as ofSeptember 30,1999 and 1998;
                                                                                                                                      •    Instituting all necessary security policies, and
                         inadequacies in various Indian trust fund accounting systems; inadequate
                         records and weaknesses in intemal controls; and disagreements with ,
                                                                                                                                      •    lmproving intemal controls over software changes and
                         individual Indians about their trust fund balances. In response to these
                                                                                                                                           separation ofduties.
                         and other related concerns, the DOl has implemented a high-level action
                         plan to reform the trust fund management system.
    Semiannual Report to the Congress: October 1, 2000                  March 31, 2001                   Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                     4                                                                                                    5
Significant Audit Activities and Investigations                                                                 Significant Audit Activities and Investigations
Bureau of Indian Affairs
                                                                                                                                                                Bureau of Indian ltffairs

                          Construction ofthe ChiefLeschi School was necessitated when the              Review of Four                We reviewed the frnancial plans offour BIA-operated schools and
                  Assistant Secretary for Indian Affairs condemned the middlelhigh school portion      Schools Reveals       found that the schools were not adequately managing their frnancial
                  ofthe old school. Congress appropriated $28.9 million for construction ofthe         Noncompliance         resources and did not fully comply with the requirements for preparing and
                  new school, which was expected to house 1,077 pre-kindergarten through               with Financial        executing local frnancial plans.
                  grade 12 students. School construction was administered by the Puyallup              Plans
                  Tribe under grants and contracts awarded by the Bureau ofIndian Affairs
                                                                                                                                             •       The plans did not include all funds available to the
                  (BIA). We found that although the Tribe constructed the School within the
                                                                                                                                                     schools and/or did not contain budgets for individual
                  $28.9 million ofcontract and grant monies received, the facility differed from the                                                 programs;
                  BIA planning document for the School. The School was larger than specified,
                  which resulted in additional construction costs ofabout $666,000, and the
                                                                                                                                             •       Expenditures were not adequately monitored and
                  School did not build the athletic fields provided for in the plans, which required
                                                                                                                                                     funds were not always spent in accordance with the
                  the School to rent athletic facilities at a cost ofabout $10,000 a year. Also, the                                                 approved plans; and
                  BIA didnotremove the old school buildings from its data base, resulting in the
                  BIA overpaying by $785,000 the Tribe's school board to maintain the old
                                                                                                                                             •       The plans were not revised and school board
                  buildings. The BIA agreed to provide more effective monitoring ofschool
Monitoring of                                                                                                                                        officials were not informed when expenditures
                  construction and to recover the erroneous payments.
Indian                                                                                                                                               varied significantly from the plans.
School
Construction                                                                                                                         Accordingly, the BIA and school board officials lacked assurance
to be                                                                                                                       that funds were spent in a prudent manner. One school overspent its Indian
Improved                                                                                                                    School Education Program (ISEP) and transportation funding by about
                                                                                                                            $115,000, and another school had unspentISEP funds totaling $127,000 at
                                                                                                                            year-end and lost the use ofthose funds.



                                                                                                       Lab Technician
                                                                                                                                    Jean Peterson, former laboratory technician with Aaron Swan &
                                                                                                       Falsifies Lab
                                                                                                                            Associates, Inc., was sentenced in the U.S. District Court, District ofSouth
                                                                                                       Results
                                                                                                                            Dakota, to 4 years ofprobation and ordered to pay a fine of$2,000 for her
                                                                                                                            involvement in the fabrication ofJaboratory test reports. A BIA
                                                                                                                            construction contractor used the falsified lab reports to verifY that the base
                                                                                                                            aggregate materials used to construct a 12-mile road on the Cheyenne River
                                                                                                                           Indian Reservation met proper standards. The BIA paid the contractor
                                                                                                                           $3.5 million to build the road. They now estimate that it will cost millions of
                                                                                                                           dollars to restore the road to the proper quality specifications. The
                                                                                                                           investigation continues to determine whether other individuals participated in
                                        New ChiefLeschi School                                                             the scheme.




   Semiannual Report to the Congress: October 1, 2000                    March 31, 2001                  Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                   6                                                                                                      7
Significant Audit Activities and Investigations
                                                                                                             Significant Audit Activities and Investigations
Bureau of Indian Affairs
                                                                                                                                                     Bureau of Land Management


Sisters                          Diana Smith and Doreen Begay, former employees ofa                                                 The Joint Pipeline Office (JPO), which is operated by the Bureau of
Sentenced               Navajo boarding school, were sentenced in U.S. District Court, District                            Land Management (BLM) and the Alaska Department ofNatura1
for Stealing            ofArizona, following their guilty pleas to conspiracy and theft for                                Resources, has corrected 99 percent (4,916 of 4,920) ofthe deficiencies
Federal                 stealing more than $200,000 from a Federal program intended to feed                               previously identified in the Trans-Alaska Pipeline System (TAPS). The
Lunch Money             underprivileged Native American schoolchildren. To carry out their                                plpehne, which IS operated by the AlyeskaPipeline Service Company,
                        scheme, the sisters discovered an obsolete school bank account, stole                             transports ahnost 20 percent ofthe Nation's domestically produced oil over
                        checks, deposited the funds into that account, and used the money to                              ~ 800-milepipeline that extends from Prudhoe Bay, north ofthe Arctic
                        gamble at casinos. Smith was sentenced to 18 months ofimprisonment                                CIrcle, to the Port ofValdez on Prince William Sound. In 1993,
                        and 3 years ofprobation. Begay was sentenced to 4 months ofhome                                   consult~ts hired by Alyeska and the JPO identified the 4,920 deficiencies
                        confinement and 5 years ofprobation. Smith and Begay were ordered                                 m plpelme operations that included structural problems which could
                                                                                                    PreViously
                        to jointly make restitution of$208,422. As a result ofthis investigation,                         adversely impact the pipeline in case ofan earthquake and inadequate
                                                                                                    Identified
                        BIAhas initiated improvements in the marmerin which lunch                                        secunty measures at remote gates. During our review, we identified some
                                                                                                    Deficiencies
                        reimbursement checks are processed.
                                                                                                    in the Trans-        needed lll1proveme~ts inJPO's monitoring program and external reporting.
                                                                                                    Alaska Pipeline      The BLM agreed WIth the report's findings and three recommendations to
                                                                                                    System               lll1prove inspection and oversight.
                                                                                                    Corrected
Former Tribal                    Tribal ComptrollerAllan Butterfield and Tribal Accountant Lou                                    We also looked at actions taken by JPO and Alyeska in response
Comptroller             Ann Gordon ofthe Red CliffBand ofChippewa Indians (Red Cliff                                     to 44 allegahons made by a private interest group regarding mismanagement
and Former              Band) were charged in a three-count indictment by a Federal grand jury                           of TAPS: The allegations included electrical violations, improper inspector
Tribal                  for the WestemDistrict ofWisconsin ofconspiring to embezzle                                      certlficatJons, and materials that could not be traced to authorized suppliers.
Accountant              approximately $925,000 from a tribal bank account and converting                                 Based on documentation prepared by JPO and a consultant ofAlyeska, we
Indicted for            nearly a quarter ofa million dollars ofthe funds to their personal use.                          found that:
Conspiracy              The Red CliffBand located in Bayfield City, Wisconsin, is an Indian
and                     tribal organization tbatreceives more than $1 million in funding from the                                        •       2 allegations were not supported;
Misapplication          BIA each year. During a routine audit, auditors discovered that a bank
of Tribal               account reserved solely for the distribution ofFederal program funds                                             •       13 allegations had been previously identified as
Funds                   was improperly being used to issue payroll advances to Red CliffBand                                                     pipeline deficiencies by JPO, Alyeska, or a
                        employees. None ofthe advances were repaid. The indictment                                                               consultant; and
                        charged that for more than three years, Butterfield and Gordon useda
                        bank account that the tribal council was told had been closed, to divert                                        •        Alyeska had corrected the problem for 10
                        Federal program funds. Butterfield and Gordon hid the existence ofthe                                                    allegations and had issued a plan for addressing the
                        account by failing to report it in the tribal general ledger and year-end                                                problem for 19 allegations.
                        financial reports, and then disbursed payroll advances from the hidden
                        account to themselves and others within the tribal accounting
                        department. A trial date is pending.




   Semiannual Report to the Congress: October 1, 2000                March 31, 2001
                                         8                                                            Semiannual Report to the Congress: October 1, 2000                  March 31, 2001
                                                                                                                                             9
                                                                                                                    Significant Audit Activities and Investigations
Significant Audit Activities and Investigations
                                                                                                                                                                   Fish and Wildlife Service
Bureau of Reclamation

                                   Congress controls and monitors the Federal money spent in                                              During our review, we informed management officials ofthe Fish
                           developing water projects, including the BonnevilleUnit of.the.Central                                and Wildlife Service's (FWS) National Conservation Training Center of
                           Utah Project, by establishing an authorized cost ceiling, which IS the                                deficiencies in its purchasing and property management. Center officials,
                           maximum amount ofmoney that Congress will appropriate to construct                                    before our fin al report was issued, implemented all ten ofthe audit
                           a project. Since a water proj ect can take years to come on line,                                     reconunendations. Problems addressed by the Center were the lack of
                           Congress allows the authorized cost ceiling to be.upd~ed annually for                                 competitive procurements, the use ofinappropriate contractlng methods,
                           changes resulting from economic factors, usually mflatlOn. The updating          National             and the lack ofcontrols over contractor payments and performance. As a
                           process is called indexing.                                                      Conservation         result, the Center lacked assurance that the best quality goods and services
                                                                                                            Training Center      were obtained at the lowest cost. Inadequate administrative controls were
                                     We concluded that the Bureau of Reclamation's (BOR)                    Improves its         also found in the Center's property management system, which caused
Reliability of                                                                                                                   duplicate cost entries, other posting errors, and omissions ofsome
                            $1.4 billion cost ceiling calculation for the BonnevilleUnit was not            Purchasing and
Cost Ceiling for                                                                                                                 acquisitions in the system, thus resulting in inaccurate property listings.
                            reliable and should not be used as the basis for requesting additional          Property
Bonneville Unit
                            appropriations for the following reasons:                                       Management
Disputed

                                        •     BOR records were insufficient to support historical
                                              amounts and adjustments included in the computations.
                                              For example, records were not available to support
                                              expenditures fornoncontract (i.e., designs and
                                              specifications, construction supervision, and
                                              engineering) costs totaling $280 million from 1966 to         Refuge Law                    At the request ofthe Director ofthe Fish & Wildlife Service
                                               1997.                                                        Enforcement          (FWS), IG Program Integrity staffteamed with consultants from the
                                                                                                            Review Leads to      International Association ofChiefs ofPolice (IACP) to assess Refuge Law
                                              The BORincorrectly continued to index unbuilt                 Assessment           Enforcement. IACP staffdelivered a comprehensive final report,
                                         •                                                                  Department-Wide      Protecting the National Wildlife Refuge System: Law EnfOrcement
                                              commercial power and irrigation features that, since
                                              1992, it was no longer authorized to construCt. The                                Requirements for the 21st Century. This report identified numerous
                                              continued indexing ofthese features for inflation                                  weaknesses and vulnerabilities in staffing, training and properlyequipping
                                              incorrectly increased the ceiling by about $63 million.                            refuge law enforcement. Initial steps have been taken by FWS leadership
                                                                                                                                 to prioritize their efforts to address the identified concerns in the report. IG
                                               The BOR did not record $14.6 million ofexpenditures                               staffwill closely monitor efforts by FWS to address these issues in a timely
                                          •    against the Bonneville cost ceiling, thereby overstating                          manner.
                                               the ceiling available for appropriation by that amount.
                                                                                                                                         As a result ofthis study and numerous other studies related to the
                                      The Assistant Secretary for Water and Science disagreed with                               law enforcement components ofthe Department, Secretary Norton has
                              our conclusion and stated that the BOR's calculation would continue to                             requested that the IG conduct a comprehensive study oflaw enforcement in
                              be used as the basis forrequesting additional appropriations. As the                               the Department. Program Integrity and Audit staffwill be utilized to
                              Congress will ultimately resolve this issue (through the fi.mding process),                        conduct tills assessment and we anticipate completing the final report to the
                              both the Assistant Secretary and our office informed the Congr~ss of                               Secretary in the fall of200 I.
                              our respective positions.


                                                               000            March 31, 2001                   Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
     Semiannual Report to t h e C ongress: 0 c t 0 b e r 1 , 2                                                                                 13
                                        12
Significant Audit Activities and Investigations
                                                                                                                    Significant Audit Activities and
Insular Areas                                                                                                                                                                   Investigations
                              The Virgin Islands (VI) Legislature spent $1.16 millionmore than it                                                                                    InSUlar Areas
                     was allotted in fiscal year 1999, which contributed to the overall operating           Virgin Islands
                     deficit ofthe VI Government. This occurred because the Legislature was                 Port Authority            . . During fiscal year 1999, the VI Port Autho .            "       .
                                                                                                                                  AVIatIon Division and its Marin D' . .               nty, ConSIstIng ofItS
                     allotted less than its full appropriation but did not limit its expenditures to the    Successfully                 .                         e IVlslon, successfully generated
                                                                                                           Generating             operatIng revenues ofabout $21.7 million from landin
                     amount allotted. During the review, we also noted that the Legislature used
                                                                                                                                  parking fees plus rents and concessions at .           . ~: passenger, and
                     its petty cash fund for regular operating expenses totaling about                     Revenues but           ofabout $15 1 'lli fr           .       . .auportfaclhtlesandrevenues
                     $1.26 million, thus bypassing the controls in the Department ofFinance;               Needs to                             . rm on om vanous shippIng and dockin fi            I
                                                                                                                                  and concessions at seaport faciliti    H                    gees p us rents
                     allowed personal services contractors to begin contract work before the               Improve Controls      needed to mak .                  . es. owever, the Port Authority
                     contracts were legally executed; awarded contracts to full-time Government                                                   eunprovementsInthew't                 d'
                                                                                                                                 leases, collected amounts it was ow       ay I manage ItS real property
                     employees; paid significantly different rates to different contractors                                      atparkin "' 'li'                      ed, and controlled cash collections
                                                                                                                                           g laCI tres. We found that:
                     performing the same function; did not track the number ofhours worked by
                     the contractors; and failed to discontinue retirement annuity payments to
Virgin Islands       Government retirees who were working under contract. In its response,
                                                                                                                                                   •     SU~leaserevenuesof$1 0,600 were not
Legislature          the Legislature did not agree with our recommendation to limit expenditures                                                         r~ed beca~se the Port Authority had not
Spent More           and obligations to amounts allotted because it believed that the executive                                                          obtamed COpIes ofsublease agreements.
than Allotted        branch ofthe Government did not have the authority to reduce its
                                                                                                                                                •        Effective collection and errforcement action 0
                     appropriation. The Legislature did, however, agree with 7 ofthe other 11
                     report recommendations to improve operations and was asked to                                                                       87 accOl~ts totaling more than $Imillion tha~
                     reconsider the other 4.                                                                                                            were delInquent for over 90 days was not
                                                                                                                                                        taI<:en, and 3 I other delinquent accounts were
                                                                                                                                                        wntten o~as unCOllectible, even though there
Improvements                  Although excise tax payments collected by the VI Bureau of                                                                was no eVIdence that any collection activity was
Needed to            Internal Revenue were appropriately deposited to the Government's                                                                  undertaken for 18 ofthe accounts.
Ensure all           General Fund, improvements in administration were needed to ensure that
Virgin Islands       all taxes due are paid. Specifically, the Bureau did not:                                                                 •       Parking fees were collected for only 25
Excise Taxes                                                                                                                                           percent ofthe parking machine tickets issued,
are Paid                          •   Assess and collect excise taxes in at least 1,111                                                                and controls were not adequate to ensure that
                                      instances where businesses received merchandise through                                                          all collectIons were deposited.
                                      the U.S. Postal Service.
                                                                                                                                      The VI Port Autho 'ty       d'
                                 •    Take effective action to collect $155,100 from 108                                      mana                    . n agree to unprove controls overlease
                                      bondholders after the merchandise had been released.                                         gern~nt, thecollectron ofdelinquent accounts andth 11 .
                                                                                                                              and depOSIt ofparking lotfees.                   '     e co ectron
                                 •    Validate tax credit claims before processing. Not doing so
                                      resulted in approved claims ofabout $672,900 that were
                                      not adequately supported and claims ofabout $195,600
                                      that were in excess ofthe taxes paid or were claimed more
                                      than once.
                                 •    Collect at least $3,500 in excise taxes because of
                                      computational errors.

                             The Governor concurred with all eight recommendations and
                     indicated that corrective actions would be taken.
   Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                           14
                                                                                                                                                                           March 31, 2001
Significant Audit Activities and Investigations
                                                                                                             Significant Audit Activities And Investigations
Insular Areas
                                                                                                                                                Minerals Management Service

Construction                  Lincoln Gumbs, a construction contractor, was sentenced in
Contractor           U.S. District Court, St. Thomas, Virgin Islands, to 18 months of                                                In recent settlements, six major oil companies agreed to pay
Sentenced in         imprisomnent, 3 years ofprobation, and ordered to pay restitution in the                                more than $154 million to the U.S. Government to resolve claims under
False Claims         amount of $251, 131 following his conviction for making false                                           the False Claims Act that they underpaid royalties owed for oil
Case                 statements and submitting false claims related to construction contracts                               produced on Federal and Indian lands for more than 10 years. The
                     at the St. Thomas Hospital and the Eudora Kean High School. The                                        settlements resolve allegations that the companies underreported the
                     construction contracts, valued at more than $4 million, required surety                                value ofthe oil that they produced on the leased lands and,
                     bonds to guarantee performance under the contracts. Gumbs paid only                                    consequently, paid fewer royalties than they owed to the government.
                     $10,000 for the surety bonds; however, he submitted and received                                       This continuing effort by the Departrnent ofJustice and OIG has
                     reimbursements for the claims in the amount of$236,926. Inaddition,                                    resulted in the recovery ofmore than $484 million since 1998.
                     Gumbs falsely over-valued the real property he used as security for the          Additional
                     performance and payment bonds. Without the bonds, Gumbs could not                                              These recent oil settlements included Shell Oil Company _
                                                                                                      Settlement
                     have obtained the construction contracts for the two Government                                        $110million; Burlington Resources, Inc. - $8.5 million; Marathon Oil
                                                                                                      Agreements in
                     building projects awarded to his company. Gumbs is appealing his                                       Company - $7.7 million; Exxon Company USA - $7 million; Phillips
                                                                                                      Royalty
                     sentence.                                                                                              Petroleum - $8 million; and Kerr McGee Energy Corporation/Oryx
                                                                                                      Underpayment          Energy Company - $13 million.
                                                                                                      Cases




Former Secretary             Antonio Cabrera, former Secretary ofFinance, Cornmonwealth of
of Finance           Northern Mariana Islands (CNMI), was sentenced to 33 months of
Sentenced for        imprisomnent, and 3 years ofprobation as a result ofhis conviction on three
Theft of Funds       counts oftheft related to his misappropriation oftravel funds and other
                     monies from the CNMI Government. In addition, Cabrera was ordered to
                     make restitution of$56,462, and to pay a fine of$15,000. Cabrera was
                     originally indicted by a Federal grandjury ofthe U.S. District Court, District
                     ofGuam, on charges ofbribery, as well as the theft charges. Cabrera was
                     acquitted on the bribery counts.




   Semiannual Report to the Congress: October 1, 2000                  March 31, 2001
                                          16                                                          Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                                                                                                                          17
Significant Audit Activities and Investigations
                                                                                                                   Significant Audit Activities and Investigations
National Park Service
                                                                                                            Office of Surface Mining Reclamation and Enforcement
                             Under the National Park Service (NPS) Concessions Management
                    Improvement Act (CMIA) ofl998, the NPS is authorized to use 20 percent
                    ofthe franchise fees from concessionaires for NPS-wide activities and 80                                                The United Mine Workers ofAmerica (UMW) Combined
                    percent for expenses at the park at which the fees were collected. The                                         Benefit Fund (CBF) provides health care and death benefits for
                    CMIA provided that fees could be used for visitor services and to pay for                                      approXImately 65,000 retired union coal mine workers and their
                    high priority and "urgently necessary resource management programs and                                         dependents. The Office ofSurface Mining Reclamation and
                    operations." We found that the NPS has issued guidelines covering the                                          Enforcement ~OSM) pays, from the interest eamed on its abandoned
Guidelines on       collection, accounting, and use offunds derived from franchise fees collected                                  mme reclamatIon fund, the health care premiums ofretired workers
Park Use of         in parks. The guidelines, however, gave priority to concession-related needs,                                 whose former employer cannot be identified. We found that the
Franchise Fees      regardless ofother urgent needs. In order to meet the intent ofthe CMIA,             Amounts                  $234 mIilIon transferred ~y the OSM to the CBF for fiscal years 1996
to be Revised       we recommended that the NPS revise the guidelines to allow funds to be               Transferred for          through 2000 was, WIth mmor exceptions, accurately determined and
                    used for other high priority projects before all concession-related needs are        Coal Mine Workers        that the amounts paid for the health care of beneficiaries were accurate
                    addressed and for salaries for needed temporary and seasonal employees on            Benefit Fund             However, the transfer bills for fiscal years 1999 and 2000 were          .
                    approved proj ects. The NPS agreed to make the recommended revisions.                Accurate                understated by about $885,000 and $427,000, respectively, which
                                                                                                                                 represented only about 1 percent ofthe total transfers for those years
                                                                                                                                 When mformed of~he understatements, the UMW recovered the              .
Concessionaire              Black Canyon, Inc., a concessionaire contracted by the NPS to
                                                                                                                                 $8.85,000.and saId It would recover the remaining $427,000 b
Convicted for       operate a river rafting business on the Colorado River, pleaded guilty in the
                                                                                                                                 adJustmg ItS fiscal year 200 I bill.                            Y
Underpayment        U.S. District Court for the District ofNevada to charges that it made false
of Franchise        statements to the NPS by underreporting more than $1 million in gross
Fees                revenues on their annual financial reports to the NPS. Under the terms ofthe
                                                                                                         Fund May Not Be
                    contract, Black Canyon was required to pay a franchise fee to NPS based                                        .      The financial condition ofthe CBF has deteriorated since the
                                                                                                         Able to Meet its
                    on Black Canyon's gross revenue receipts. This investigation was part of an                                  mId -1990s because.the monthly premiums billed to coal operators for
                                                                                                         Long-Term
                    ongoing initiative to evaluate the fiscal accountability ofthe NPS                                           ~he asSIgned beneficIanes are significantly less than the cost actually
                                                                                                         Financial
                    conceSSIOnaires.                                                                                             mcurre? for.their health care. For example, the estimated cost per
                                                                                                         Obligations
                                                                                                                                 beneficIary 111 fiscal yea: 2000 was $3,562, whereas the premium was
NPS Secretary                 Sharon Herring, Secretary, Recreation Conservation Division, NPS,                                  only $2,502, for a deficIt per beneficiary of$I,059. Should this trend
Falsified Payroll   pleaded guilty in U.S. District Court, District ofGeorgia, to embezzlement                                  co~tIn~e, the CBF may not be able to meet its future financial
Records to          charges for falsely claiming more than $30,000 in overtime hours on her time                                oblIgatIOns. Based on our observations, we suggested that CBF
Obtain Money        and attendance forms. For more than a year, Herring submitted the overtime                                  trustees, coal operators, administrators ofthe United Mine Workers of
for Overtime        hours for work she allegedly performed at the Southern Area Coordination                                    Amenca Health and Retirement Funds, and cognizant Federal agencies
Never Worked        Center. The Southern Area Coordination Center is a multi-agency task force                                  work together to address this matter.
                    assigned to handle emergencies that include forest fires, hurricanes, and
                    tornadoes. In one pay period alone, Herring claimed 320 hours ofovertime.
                    The investigation also developed additional information that Herring
                    improperly used her govemment-issued credit card to obtain cash advances,
                    airline tickets, rented cars, and fuel for the unauthorized vehicles. The total of
                    her unauthorized transactions exceeded $15,000. When interviewed,
                    Herring admitted to her actions and described in detail how she falsifie~hours
                    and certified those hours by using her supervisor's payroll code. Shortly after
                    the interview, Herring stopped reporting to work and was administratively
                    terminated. Sentencing is pending.
    Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                                                                                           Semiannual Report to the Congress: October 1, 2000
                                            18                                                                                                                              March 31, 2001
                                                                                                                                               19
                                                                                                                                                      Appendix 2
                                        Appendix 1

                         Summary of Audit Activities                                                  Reports Issued or Processed and Indirect Cost Proposals Negotiated
                  From October 1, 2000 through March 31, 2001                                                 During the 6-Month Period Ended March 31, 2001
                                                                                                    This listing includes all internal audit reports issued, evaluations completed, contract and single audit reports issued or
                                 AUDITS PERFORMED BY:                                               processed, and indirect cost agreements negotiated during the 6-month period ended March 31, 200 I. It provides report
                                                                                                    number, title, issue date, and monetary amounts identified in each report (*funds to be put to better use,
                                                                         NON-
                                                                                                    **questioned costs, ***unsupported costs [unsupported costs are included in questioned costs], and ****lost or
                                                                      FEDERAL
                                                                      AUDITORS                      potential additional revenues).
                                                     OTHER               (With
                                                    FEDERAL           Review and
                                                                       Processing
                                     OIG STAFF      AUDITORS
                                                                           by                       Internal Audits
                                                  (With Processing
                                                   by OIG Start)       OIG Start)
                                                                                                    Bureau of Indian Affairs
                                      Internal
                                         and                                                        01-1-235          Compliance with Local Financial Plans for the 1997/1998 School Year at Selected
                                      Contract    Contract and          Single                                        Schools Operated by the Bureau ofIndian Affairs (3/13/01) *$339,600
                                                                                          TOTAL
                                                  Grant Audits          Audits                      01-1-237          Construction Costs of ChiefLesehi School, Constructed by the Puyallup Tribe Under
                                     Audits and
                                        ICPs·                                                                         Bureau ofIndian Affairs Replacement School Construction (3/5/01)

REPORTS ISSUED TO:                                                                                  Bureau of Land Management
                                                                           0                  6
                                         6                0
 Department/Office ofthe Secretary
                                                                                             23     01-1-96           Collections Module of the Collections and Billings System, Bureau ofLand Management
                                                          3               13
 Fish and Wildlife and Parks             7                                                                            (12/21/00)
                                                                          72                 75     01-1-206          Oversight Activities of the Trans-Alaska Pipeline System, Bureau ofLand Management
                                         3                0
 Indian Affairs                                                                                                       (2/7/01)
                                                                          16                 20     01-1-274          Independent Auditors Report on Bureau of Land Management Financial Statements for
                                         4                0
 Insular Areas                                                                                                        Fiscal Year 2000 (3/8/01)
                                                                           7                  15
                                         8                 0                                        01-1-309          Management Issues Identified During Audit of the Bureau of Land Management
  Land and Minerals Management
                                                                                              10                      Financial Statements for Fiscal Year 2000 (3/30/01)
                                                           0                6
  Water and Science                      4
                                                              3          114                 149    Bureau of Reclamation
     Subtotal                           32
                                                                                                    01-1-20           Bureau ofReclamation 's Calculation ofthe Authorized Construction Cost Ceiling for the
  INDIRECT COST PROPOSALS NEGOTIATED FOR:
                                                                                             120                      Bonneville Unit, Central Utah Project (10/24/00)
                                                              0                0
  Indian Tribes and Organizations       120
                                                              0                0              12    Fish and Wildlife Service
   Insular Areas                         12
                                                                               0              28    01-1-288          Procurement and Property Management Activities, National Conservation Training Center
                                         28                    0
   State Agencies                                                                                                     (3/30/01)*$59,100
                                                                               0              160
                                        160                    0
      Subtotal
                                                                          114                 309
                                        192                       3
         TOTAL


'Indirect cost proposals
                                                                                   March 31, 2001         Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                 Report to the Congress: October 1, 2000                                                                                  21
      Semiannual
                                      20
Multi-Office
                                                                                                              Contract Audits
01-1-225    Procurement ofEqual Employment Opportunity Investigative and Counseling Services
            (2/21/01)                                                                                         Bureau of Reclamation
01-1-257    Independent Auditors Report on the Department of the Interior Annual Report for Fiscal Year
            2000 (2/28/01)                                                                                   01-E-184
                                                                                                                           Mingus Constructors, Incorporated, Costs Clai            '
01-1-297    Stripper Oil Well Property Royalty Rate Reduction Program (3/30/01)                                            Bureau of Reclamation Under Co tr t N         med for EqUItable Adjustment Submitted to
                                                                                                             01-E-229      Sloat and Associates IncorporatednCact COl' 1425-5-CC-40-l7910 (2/14/01) *$725790
National Park Service                                                                                                      N                   '            , os s aImed Under B
                                                                                                                            o. 1425-5-CC-40_18140 (2/15/01) *$15796
                                                                                                                                                                                             f         "
                                                                                                                                                                                      ureauo ReclamatIOnContract
                                                                                                             01-E-260
                                                                                                                           Ferguson Harbour, Incorporated CostsB'1I 'd 4
01-1-116    Collection and Use of Concession Fees (1/11/01)                                                                No. 98CS81 0027, Delivery Ord:r No. 98l4~ I<%~~er:ureau of Reclamation Contract
01-1-305    Independent Auditors Report on National Park Service Financial Statements for Fiscal Year                      March 23, 2000 (3/2/01) **$6, 723                ' Om October 7, 1999 through
            2000 (3/30/01)
                                                                                                            Fish and Wildlife Service
Office of the Special Trustee for American Indians
                                                                                                            01-E-17
                                                                                                                           Cost Accounting System Used by the State ofW'          ,
01-1-205    Independent Auditors Report on the Financial Statements for Fiscal Years 1998 and 1999 for                     the U.S. Fish and Wildlife Service for F' 1Y Isconsm for Federal Aid Grants Awarded by
            the Office of the Special Trustee for American Indians Tribal and other Special Trust Funds     01-E-61       U.S. Fish and Wildlife Service Federal :,~aGear 1997 (10/20/00)
                                                                                                                          Game Department for Fiscal Years 1996 andr~~~7to(J~;3State ofNew Hampshire Fish and
            and Individual Indian Monies Trust Funds Managed by the Office of Trust Funds Management                                                                 1

            (1/31/01)                                                                                       01-E-117      U,S. FIsh and Wildlife Service Fed I A'd Gr               0/00) **$44,070
                                                                                                                          N atural Resources for Fiscal Yearsera19961 dants
                                                                                                                                                                         9
                                                                                                                                                                            to the St t 'fW
                                                                                                                                                                                     a eo
                                                                                                                                                                                                 '"
                                                                                                                                                                                            est VIrgIma Division of
Office of Surface Mining Reclamation and Enforcement
                                                                                                           01-E-230       GeonixMartel, Incorporated, Costs Billed ~~ 1 97 (12/26/00) **$16,837,909
                                                                                                                          No. 14-48-0009-96-003 from June 4 1996 thrder U.S. FISh and WIldlIfe Service Contract
           Funds Transferred to the United Mine Workers of America Combined Benefit Fund by the                                                                ,       ough November 30, 2000 (2/16/01)
01-1-187
           Office of Surface Mining Reclamation and Enforcement (2/5/01)                                   Minerals Management Service
01-1-188   Selected Aspects of the Operation of the United Mine Workers of America Combined Benefit
           Fund (2/5/01)                                                                                   01-E-234
                                                                                                                         State of Colorado, Department of Revenue Costs Bil            '
01-1-273   Independent Auditors Report on Office of Surface Mining Reclamation and Enforcement                           ServIce Cooperative Agreement No, 1435-' _         led Under Mmerals Management
           Financial Statements for Fiscal Year 2000 (3/7/01)                                                            June 30,2000 (2/16/01)                  02 99-CA-40307 from October 1,1998 through

Office of the Secretary                                                                                   National Park Service

01-1-104   Office of Personnel Management - Agreed Upon Procedures (12/14/00)                             01-E-35
                                                                                                                         Callas Contractors, Incorporated Costs B'II d           '
01-1-131   Personnel and Payroll Processing Policies and Procedures, National Business Center!                          No. l443CX300094906 fro J '               1 e Under NatIOnal Park Service Contract

           Products and Services, Office of the Secretary, Department of the Interior (1/22/01)
                                                                                                          01-E-36       Capitol Mechanical Constru:io;~aryt\lif~ through June I, 1999 (11/7/00) **$16425
01-1-211   Management Issues Related to the Collection of Delinquent Loans and Property Taxes by the                    No, 1443CX300094906 from Ja;uaos: I~; Under National Park Service Contract'
           Department of Hawaiian Home Lands (2/20/01)
                                                                                                          01-E-244      E.M.S. Consultants, Incorporated C';;st; Bill7dthrough June I, 1999 (11/7/00) **$98,194
                                                                                                                        No, 1443CX300094906 from Ma~ 1 1996
                                                                                                                                                           ,
                                                                                                                                                                   ::r  Under NatIOnal Park Service Contract
                                                                                                                                                                   tough June I, 1999 (2/28/01) **$327,330
U.S. Virgin Islands
01-1-107   Administrative Functions, Legislature ofthe Virgin Islands, Government ofthe Virgin Islands
           (12/29/00) *$1,193,541 and **$126,752
01-1-247   Verification of Watch Quota and Jewelry Quota Data for Calendar Year 2000 (2/28/01)
01-1-291   Administration and Collection of Excise Taxes, Bureau ofIntemal Revenue, Government of
           the Virgin Islands (3/30/01) *$868,496 and **$158,600
01-1-303   Billing and Collection Functions, Virgin Islands Port Authority, Government ofthe Virgin
           Islands (3/30/01) *$2,086,162

    Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                               22                                                           Semiannual Report to the C
Single Audits                                                                                                01-A-151
                                                                                                                             Lac Du Flambeau Band of Lake Su e '     ,
                                                                                                                             30, 1999 (1/12/01)             P nor ChIppewa Indians, Fiscal Year Ended September
                                                                                                             Ol-A-189
Bureau of Indian Affairs                                                                                                     Leech Lake Reservation F' 1Y
                                                                                                             Ol-A-190        Red Lake Band of Chi 'e~SCt ,ear E~ded September 30, 1997 (1/24/01)       -
Ol-A-O      Northwest Intertribal Court System, Fiscal Year Ended September 30,1999 (10/3/00)                                **$78,369           pp a ndJans, FIscal Year Ended September 30,1998 (1/24/01)
            **$27,229                                                                                        Ol-A-191        Enemy Swim Day S h I F'
                                                                                                             Ol-A-l92       Alam N       's c 00, Iscal Year Ended June 30,1999 (1/24/01)
Ol-A-4     Tunica-Biloxi Tribe of Louisiana, Fiscal Year Ended December 31,1998 (10/6/00)                                         o avaJo choo1 Board Incorporated F' I
Ol-A-5      Otoe-Missouri Tribe ofIndians, Fiscal Year Ended December 31, 1997 (10/10/00)                    Ol-A-203       Quechan Indian Tribe, Fiscal Year E d d    D
                                                                                                                                                                       lsca Year Ended June 30,1999 (1/24/01)
            **$161,770
                                                                                                             Ol-A-204       Northwest Indian Colle       '      n e ecem ber31, 1998(1/25/01)
                                                                                                            Ol-A-214        Sh h      B             ge,FIscalYearEndedJune30 1999(1125/01)
Ol-A-6     Yavapai-Apache Nation, Fiscal Year Ended December 31, 1998 (10/6/00)                                                os one- annockSchoolDistrictNumber512 F' '
Ol-A-7     Dibe Yazhi Habitiin Olta, Inc., DBA Borrego Pass School, Fiscal Year June 30, 1999 and 1998      Ol-A-215        Shoshone-Bannock School District Numb 512' Flscai Year Ended June 30, 1998 (2/8/01)
            (10/13/00) **$165,519                                                                           Ol-A-216
                                                                                                            Ol-A-218
                                                                                                                                                                            d
                                                                                                                            Hannahville Indian Community FiscalY erE dl~ca Year Ended June 30, 1999(2/8/01)
Ol-A-9     Lac Courte Oreilles Ojibwa Community College, Fiscal Year Ended June 30, 1999 (10/20/00)                         Hopland Band ofPomo Indians' Fisc I year n e eptember 30, 1999 (2/8/01)
                                                                                                                                                               a
Ol-A-22    Pawnee Nation of Oklahoma, Fiscal Year Ended December 31,1997 and 1996 (10/27/00)
                                                                                                            Ol-A-219       Wa He Lut Indian School Fisc;1 Yea E ~ardEJnded December 31, 1998 (2/9/01)
           Menominee Indian Tribe ofWisconsin, Fiscal Year Ended September 30, 1998 (10/27/00)              Ol-A-220       Havasu ai Tr'b     "                r n e Une 30, 1999 (2/8/01)
Ol-A-23                                                                                                                    Salt R' p P' I e, FIscal Year Ended September 30, 1998 (2/8/01)
Ol-A-32    The Chickasaw Nation, Fiscal Year Ended September 30, 1999 and 1998 (11/3/00)                    Ol-A-231
                                                                                                                                 Iver Ima-Mancopa Indian C          '
Ol-A-33    Bering Sea Fishermen's Association, Fiscal Year Ended June 30, 1998 and 1997 (1116/00)                          (2//5/01)                         ommumty School, Fiscal Year Ended June 30, 1999
                                                                                                           Ol-A-232
Ol-A-39    Chickasaw Nation, Fiscal Year Ended September 30, 1998 (11/6/00)                                                Shoalwater Bay Indian Tribe Fis a1 Y ear
                                                                                                           Ol-A-233        Temecula Band ofLuiseno Missiocn Ind Endfehd September 30, 1998 (2/16/01)
Ol-A-73    Grand Portage Reservation Tribal Council, Fiscal Year Ended December 31, 1997 (12/7/00)
Ol-A-74    St. Croix Tribe of Wisconsin, Fiscal Year Ended September 30, 1998 (12/7/00)                                    En ded September 30, 1998 (2/16/01) lanso t ePechangaIn d'Ian R eservatlOn,  '
                                                                                                                                                                                                            Fiscal Year
                                                                                                           01-A-256
Ol-A-77    San Juan Pueblo, Fiscal Year Ended December 31,1998 (12/13/00)                                                  Coyote Canyon Rehabilitation Center I
Ol-A-78    Penobscot Indian Nation, Fiscal Year Ended September 30, 1999 (12/14/00)                                        1999 (3/23/01)                       , ncorporated, and Affiliate, Fiscal Year Ended June 30
                                                                                                           01-A-263        Osage N t'     F'                                                                            '
Ol-A-79    The Hopi Tribe, Fiscal Year Ended November 30,1998 (12/13/00)                                                           alOn" Isca1 Year Ended September 30 1997 (3/6/01)
                                                                                                           Ol-A-264       Penobscot IndIan Nation F' I Y                   ,
Ol-A-80    Oneida Tribe ofIndians of Wisconsin, Fiscal Year Ended September 30, 1999 (12/14/00)
            **$6,500
                                                                                                           Ol-A-265       Chilchinbeto Community' S~shca I lear Ended September 30, 1998 (3/5/01)
                                                                                                           Ol-A-266                                      00, ncorporated FIscal Y     E d d
Ol-A-81    Samish Indian Nation, Fiscal Year Ended December 31, 1998 (12/13/00)                                           Ute Mountain Ute Tribe Fiscal Y       E d d'            ear n e June 30,1999 (3/5/01)
Ol-A-87    Marty Indian School Board, Incorporated, Fiscal Year Ended June 30, 1998 (12/14/00)
                                                                                                           Ol-A-270       Pueblo of Laguna, Depa~ent of~~ucn ,e September 30, 1999 (3/5/01)
Ol-A-88    Little Wounded School Board, Incorporated, Fiscal Year Ended June 30, 1998 (12/13/00)
                                                                                                          01-A-271        TohonoO'OdhamNation FiscalYea ;t:~~lscal Year Ended June 30, 1998 (3/7/01)
Ol-A-92    Crow Creek Tribal Schools, Fiscal Year Ended June 30, 1998 (12/14/00)
                                                                                                          Ol-A-287        Pueblo of Laguna, Fiscal Year EndedrFe~ e eptember 30,1999 (3/7/01)
                                                                                                          Ol-A-292       Th10pthlocco Tribal Town F' 1Y             uary 28, 1999 (3/22/01)
Ol-A-93    Northern Cheyenne Tribal School, Fiscal Year Ended June 30, 1998 (12/15/00)                                        ,                      , lsca ears Ended SePt b 30
                                                                                                          Ol-A-294       Mam1aq Association, Fiscal Year End d S          b em er ,1997 and 1996 (3/27/01)
Ol-A-I02   Kaibab Band of Paiute Indians, Fiscal Year Ended December 31, 1998 (12/15/00)
                                                                                                          Ol-A-295       Prairie Band of Potawatom , I d'     /     eptem er 30, 1999 (3/27/01) **$5842
Ol-A-I03   Redding Rancheria, Fiscal Year Ended December 31, 1998 (12/15/00)
Ol-A-1l3   Cheyenne-Arapaho Tribe of Oklahoma, Fiscal Year Ended December 31,1997 (12/22/00)
                                                                                                          Ol-A-296       Pueblo of Isleta, Fiscal Yea~ ~n~:~sD IScalbYe~r Ended December 31, 1998 (3/27/01)
                                                                                                          Ol-A-298       Confederated Tribe of Coos L        U ecem er 1,1997 (3/27/01)
Ol-A-1l4   Hoopa Valley Tribe, Fiscal Year Ended September 30, 1998 (1111/01)
Ol-A-1l5   Swinomish Indian Tribal Community, Fiscal Year Ended December 31,1998 (12/26/00)                              September 30,2000 (3/29/01) ower mpqua and Smslaw Indians, Fiscal Year Ended
                                                                                                         01-A-299
Ol-A-133   Ely Shoshone Tribe, Fiscal Year Ended December 31, 1998 (1/9/01)                                             Porcupme School Fiscal Year E d d
Ol-A-134   Santo Domingo Tribe, Fiscal Year Ended September 30, 1999 (1/10/01)
                                                                                                         Ol-A-300       Upper Skagit Indi~n Tribe Fisca~':; June 30, 1998 (3/29/01) **$103,603
Ol-A-135   Elko Band Council, Fiscal Year Ended September 30,1998 (1/10/01)
                                                                                                         Ol-A-301       Pueblo of Laguna Dep~ent fEdear EndedDecember 31, 1998 (3/29/01) **$113674
Ol-A-136   Washoe Tribe of Nevada and California, Fiscal Year Ended December 31, 1998 (1/10/01)
                                                                                                         01-A-302       Elko Band Council, Fiscal Yea:End~~~lO~, F~ca;~ear Ended June 30,1999 (3/29/01)
                                                                                                         Ol-A-304       Seneca Nation ofIndians Fiscal Year E:%. edm er 'b 1999 (3/29/01)
           **$370,430
Ol-A-137   Duckwater Shoshone Tribe, Fiscal Year Ended December 31, 1998 (1//2/01)                                                                ,                e Septem er 30, 1999 (3/29/01)
01-A-138   Indian Township Tribal Government, Fiscal Year Ended September 30, 1998 (1/9/01)              Bureau of Land Management
Ol-A-139   American Horse School, Fiscal Year Ended June 30, 1997 (1/9/01) **$10,000
Ol-A-140   Lac Courte Oreilles Ojibwas Community College, Fiscal Year Ended June 30, 1998 (1/9/01)       Ol-A-255
                                                                                                                        Texas, Fiscal Year Ended August 31, 1998 (3/1/01)
Ol-A-141   Sisseton-Wahpeton Sioux Tribe, Fiscal Year Ended September 30, 1998 (1110/01)
Ol-A-142   Fort McDowell Mohave-Apache Indian Community, Fiscal Year Ended September 30, 1998
           (1//1/01)
Ol-A-144   Forest County Potawatomi Community, Fiscal Year Ended September 30, 1999 (1/9/0 I)

     Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                     24                                                                     Semiannual Repo t t th
                                                                                                                           r O e Congress: October 1, 2000
                                                                                                                                                                                          March 31, 2001
                                                                                                                                        25
                                                                                                     Federated States of Micronesia
Bureau of Reclamation
                                                                                                     Ol-A-262      Chuuk Organization for Community Action, Fiscal Year Ended March 31, 1998 (3/5/01)
ol-A-75        Shosho~e Irrigation Project Joint Powers Board, Fiscal Year Ended
               September 30, 1999 (12/7/00)               I rporated Fiscal Years Ended December     Guam
               West River/Lyman-Jones Rural Water Systems, nco      ,
Ol-A-143
               31,1999 and 1998 (1/9/0J) "       "            dedDecember31, 1999 (2/8/01)           Ol-A-28       Guam Community College, Fiscal Year Ended September 30, 1999 (10/30/00)
Ol-A-217       WoodbridgeImgallOnDlstnct, FIscal Year En d dS t ber30 1999 and 1998(3/27/01)         Ol-A-56       Guam International Airport Authority, Fiscal Year Ended September 30, 1999 (11/28/00)
               Glenn-Colusa Irrigation District, FIscal Year En e ep em       ,
Ol-A-293                                                                                             OI-A-275      Guam Housing and Urban Renewal Authority, Fiscal Year Ended September 30, 1999
                                                                                                                   (3/12/01)
Fish and Wildlife Service                                                                            Ol-A-289      Government of Guam, Fiscal Year Ended September 30, 1999 (3/26/01) **$3,147,789
                   River Band of Lake Superior Tribe of Chippewa Indians, Fiscal Year Ended
Ol-A-76        Bad                                                                                   Republic ofPalau
               September 30,1997 (12/13/00)            30 1999 (1/29/01) **$30,183
Ol-A-195       State of Utah FIscal Year Ended June ,
               State ofGeor~ia Fiscal Year Ended June 30,1999 (1/29/01)                              Ol-A-8        Republic ofPalau, National Government, Fiscal Year Ended September 30, 1999 (10/17/00)
Ol-A-196                                                                                                           **$28,888
Ol-A-202       State ofCaliforr:ia, Fiscal Year Ended June 30,);;9 (1/29/01)
                                                                                                     Ol-A-63       Palau Community College, Fiscal Year Ended September 30, 1999 (12/4/00)
01-A-240       Alaska, Fiscal Year Ended June 30,1997 (2/2       ) E d d J e 301997 (2/23/01)
               Rh de Island and Providence PlantatlOns, FIscal Year n e un        ,                  Ol-A-261      Palau Community Action Agency, Fiscal Year Ended September 30, 1999 (3/5/01)
Ol-A-241
                  Ow
               Ne ,  Hampshire    Fiscal Year Ended June 30, 1998 (2/23/01)
Ol-A-242
01-A-248       California, Fiscal Year Ended June 30, 1997 (3/1/01)                                  Republic of the Marshall Islands
               M" souri Fiscal Year Ended June 30, 1998 (3/1/0J)
Ol-A-250
                o:;gon Fiscal Year Ended June 30,1998 (3/1/01)                                       Ol-A-29       Republic of the Marshall Islands, Fiscal Year Ended September 30, 1999 (10/30/00)
Ol-A-252
Ol-A-253        Wisco~sin, Fiscal Year Ended June 30, 1998 (3/1/01)                                                **$2,298,000

 Geological Survey                                                                                   Trust Territory ofthe Pacific Islands
                                "                    " I Y ar Ended September 30,1998 (1/29/01)
 Ol-A-200        California Institute ofTechnology, Flsca e       d d S t b 30 1996 (3/1/01)         OI-A-112      College of Micronesia Land Grant Program, Fiscal Year Ended September 30, 1999
                 California Institute ofTechnology, Fiscal Year En e ep em er ,                                    (12/26/00)
 Ol-A-249

                                                                                                     U.S. Virgin Islands
  Insular Areas
                                                                                                     01-A-82       Government ofthe Virgin Islands, Fiscal Year Ended September 30, 1998 (12/11/00)
  American Samoa
                                                                                                     National Park Service
                      " S      G rnment Fiscal Year Ended September 30,1995 (2/28/01)
  Ol-A-245        Amencan amoa ove     ,
                  **$2,241,683                                                                       01-A-89       Georgia Trust for Historic Preservation, Fiscal Year Ended March 31, 1999 (12/14/00)
                                                                                                     Ol-A-251      Decatur, Alabama, Fiscal Year Ended SeptembedO, 1997 (3/1/01)
  Commonwealth of the Northern Mariana Islands
                                                                                                     Office of Surface Mining Reclamation and Enforcement
  Ol-A-210        Karidat Fiscal Year Ended September 30, 1996 (2/2/01)
                                                                                                     Ol-A-197      State of New Mexico, Energy Minerals and Natural Resources Department, Fiscal Year
  Ol-A-212        Karida; Fiscal Year Ended September 30,1997 (2/7/01)
                                                                                                                   Ended June 30, 1999 (1/29/01)
                  Karidat: Fiscal Year Ended September 30 99; (~::;:!Year Ended September 30, 1999
  01-A-213
  01-A-2 6 9
                                                          r;
                  Commonwealth ofthe Northern Manana s an s,
                                                                                                     01-A-198
                                                                                                     01-A-199
                                                                                                                   The George Washington University, Fiscal Year Ended June 30, 1998 (1/29/01)
                                                                                                                   Campbell County, Wyoming, Fiscal Year Ended June 30,1998 (1/29/01)
                  (3/8/01) **$146,174                                                                01-A-201      Commonwealth of Pennsylvania, Fiscal Year Ended June 30, 1999 (1/29/01)
                                                                                                     Ol-A-243      Wyoming, Fiscal Year Ended June 30, 1998 (2/23/01) **$127,588
                                                                                                     01-A-267      Kentucky, Fiscal Year Ended June 30, 1998 (3/6/01)

                                                                                   March 31, 2001             Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
           Semiannual Report to the          congres~~ October         1, 2000                                                                           27
                                                                                                        Ol-P-70    The Native Village ofEyak Tribal Council, Fiscal Year Ended September 30, 1999 (12/6/00)
Indirect Cost Proposals                                                                                 Ol-P-71    The Native Village ofEyak Tirbal Council, Fiscal Year Ended September 30, 2000 (12/6/00)
                                                                                                        Ol-P-72    The Native Village of Eyak Tribal Council, Fiscal Year Ended September 30, 2001-(12/6/00)
Bureau of Indian Affairs                                                                                Ol-P-83    Confederated Tribes and Bands of the Yakima Indian Nation, Fiscal Year Ended
                                                                                                                   September 30,1998 (12/12/00)
               Kuskokwin Native Association, Fiscal Year Ended September 30,1996 (10/18/00) :$69,568    Ol-P-84    Confederated Tribes and Bands ofthe Yakima Indian Nation, Fiscal Year Ended
01-P-ll
               Kuskokwin Native Association, Fiscal Year Ended September 30, 1997 (10/18/00) $111,060              September 30, 1999 (12/12/00)
01-P-12
               Kuskokwin Native Association, Fiscal Year Ended September 30,1998 (10/18/00)             Ol-P-98    Berry Creek Rancheria of Maidu Indians, Fiscal Year Ended December 31, 1999 (12/14/00)
Ol-P-13
               *$191,436                                                                                            *$26,999
               Kuskokwin Native Association, Fiscal Year Ended September 30, 1999 (10/18/00)            Ol-P-99    Berry Creek Rancheria of Maidu Indians, Fiscal Year Ended December 31, 2000 (12/14/00)
Ol-P-14
               Kuskokwin Native Association, Fiscal Year Ended September 30, 2000 (10/18/00)                        *$20,715
Ol-P-15
Ol-P-24        Hoopa Valley Tribe, Fiscal Year Ended September 30, 1997 (10/26/00)                      Ol-P-IOO   The Hopi Tribe, Fiscal Year Ended November 30, 1998 (12/14/00)
               Round Valley Indian Health Center, Incorporated, Fiscal Year Ended June 30, 1999         Ol-P-IOI   The Hopi Tribe, Fiscal Year Ended November 30, 1999 (12/14/00)
Ol-P-25
                (10/26/00)                                                                              Ol-P-1l9   Shingle Spring Band ofMiwok Indians, Fiscal Year Ended December 31,2001 (12/28/00)
                Round Valley Indian Health Center, Incorporated, Fiscal Year Ended June 30, 2000        Ol-P-120   Coyote Valley Bank of Pama Indians of California, Fiscal Year Ended December 31, 2000
Ol-P-26
                (10/26/00)                                                                                         (12/28/00)
                Mucklehsoot Indian Tribe, Fiscal Year Ended December 31, 2001 (10/26/00)                Ol-P-121   Ely Shoshone Tribe, Fiscal Year Ended December 31, 2000 (12/28/00) *$27,624
Ol-P-27
                Lac Vieux Desert Band of Lake Superior Chippewa Indians, Fiscal Year Ended              Ol-P-122   Native Village ofWales, Tribal Environmental Program, Fiscal Year Ended December 200 I
Ol-P-30
                December 31,2000 (10/31/00)                                                                        (1/2/01) *$81,549
                Menominee Tribal Enterprises, Fiscal Year Ended June 30, 2000 (10/31/00)                Ol-P-123   Chilkoot Indian Association, Fiscal Year Ended December 31, 200-1 (1/2/01)
Ol-P-31
                Karuk Tribe of California, Fiscal Year Ended September 30, 1999 (11/6/00)               Ol-P-124   Shoalwater Bay Indian Tribe, Fiscal Year Ended September 30, 2000 (1/2/01)
Ol-P-37
                Karuk Tribe of California, Fiscal Year Ended September 30,2000 (11/6/00)                Ol-P-125   Shoalwater Bay Indian Tribe, Fiscal Year Ended September 30, 2001 (1/2/01) *$55,712
Ol-P-38
                Moapa Band of Paiutes-Moapa River Indian Reservation, Fiscal Year Ended                 Ol-P-126   Mechoopda Indian Tribe of Chico Rancheria, Fiscal Year Ended December 31, 200 I (1/5/01)
Ol-P-40
                December 31, 2001 (11/8/00)                                                             0l-P-127   Tuolumne Band ofMe-Wuk Indians ofthe Tuolumne Rancheria, Fiscal Year Ended
                 Cook Inlet Tribal Council, Incorporated, Fiscal Year Ended September 30, 200 1                    December 31,2001 (1/5/01)
 Ol-P-41
                (11/8/00) *$7,220                                                                       Ol-P-128   Bear River Band ofRohnerville Rancheria, Fiscal Year Ended December 31, 1998
                Ketchikan Indian Corporation, Fiscal Year Ended December 31, 1996 (Il/14/00) *                     (1/5/01) *$14,741
 Ol-P-42
                Ketchikan Indian Corporation, Fiscal Year Ended December 31, 1997 (11/14/00) $27,962    Ol-P-129   Bear River Band ofRohnerville Rancheria, Fiscal Year Ended December 31, 1999
 Ol-P-43
                Ketchikan Indian Corporation, Fiscal Year Ended December 31, 1998 (Il/14/00)                       (1/5/01) *$24,985
 Ol-P-44
                Ketchikan Indian Corporation, Fiscal Year Ended September 30,1999 (11/14/00)            Ol-P-130   Bear River Band of Rohnerville Rancheria, Fiscal Year Ended December 31, 2000
 Ol-P-45
                Ketchikan Indian Corporation, Fiscal Year Ended December 31, 2000 (11/14/00)                       (1/5/01) *$30,335
 Ol-P-46
                San Pasqual Band of Mission Indians, Fiscal Year Ended December 31, 2000 (11/14/00)     Ol-P-145   Cherokee Nation of Oklahoma, Fiscal Year Ended September 30,1997 (1/10/01)
 Ol-P-47
                Pueblo of Santo Domingo, Fiscal Year Ended September 30, 2001(11/15/00)                 Ol-P-146   Cherokee Nation, Fiscal Year Ended September 30,1998 (1/10/01)
 Ol-P-49
                 Ponca Tribe ofNebraska, Fiscal Year Ended September 30, 2000 (11/15/00)                Ol-P-147   Cherokee Nation, Fiscal Year Ended September 30,1999 (1/10/01)
 Ol-P-50
 Ol-P-51         Seldovia Village Tribe, Fiscal Year Ended September 30,1999 (11/16/00)                 Ol-P-148   Cherokee Nation, Fiscal Year Ended September 30,2000 (1/10/01)
 Ol-P-52         Seldovia Village Tribe, Fiscal Year Ended September 30, 2000 (11/16/00)                Ol-P-149   Cherokee Nation, Fiscal Year Ended September 30, 2001 (1/10/01)
 Ol-P-53         Seldovia Village Tribe, Fiscal Year Ended September 30, 2001 (11/16/00)                Ol-P-150   Cherokee Boys Club, Incorporated, Fiscal Year Ended June 30, 2001 (11/16/00)
                 Elk Valley Rancheria Tribal Council, Fiscal Year Ended December 31,19;9 (11/17/00)     Ol-P-152   Lovelock Paiute Tribe, Fiscal Year Ended December 31,2000 (1112/01) *$127,382
 Ol-P-54
                 Elk Valley Rancheria, Fiscal Year Ended December 31,2000 (11/17/00) $18,163            Ol-P-154   Pauma Band of Mission Indians, Fiscal Year Ended December 31,1996 (1/12/01)
 Ol-P-55
 Ol-P-59         Bay Mills Indian Community, Fiscal Year Ended December 31,2000 (11/28 OO )f            Ol-P-155   Pauma Band of Mission Indians, Fiscal Year Ended December 31, 1998 (1/12/01)
                 Fort Mojave Indian Tribe, Fiscal Year Ended September 30, 1996 (12/1/00) $47,624       Ol-P-156   Pauma Band of Mission Indians, Fiscal Year Ended December 31, 1997 (1/12/01)
 Ol-P-62
                 Confederated Tribes of the Umatilla Indian ReservatIOn, FIscal Year Ended              Ol-P-157   Pauma Band of Mission Indians, Fiscal Year Ended December 31,1999 (1/12/01) *$2,981
  Ol-P-64
                 December 31,1997 (12/4/00)                           .    .                            Ol-P-160   Orutsaramuit Native Council, Fiscal Year Ended December 31,1992 (1/17/01)
  Ol-P-65         Confederated Tribes of the Umatilla Indian ReservatIOn, FIscal Year Ended             Ol-P-161   Fallon Paiute Shoshone Tribe, Fiscal Year Ended December 31, 1998 (1/17/01)
                  December 31 1998 (12/4/00)                                                            Ol-P-162   Elk Valley Rancheria, Fiscal Year Ended December 31, 2001 (1/17/01)
                  Confederated'Tribes of the Umatilla Indian Reservation, Fiscal Year Ended             Ol-P-163   Upper Skagit Indian Tribe, Fiscal Year Ended December 31, 1997 (1/17/01)
  Ol-P-66
                  December 31, 1999 (12/4/00)                                                           Ol-P-164   Upper Skagit Indian Tribe, Fiscal Year Ended December 31, 1998 (1/17/01)
                  Confederated Tribes of the Umatilla Indian Reservation, Fiscal Year Ended             Ol-P-165   Upper Skagit Indian Tribe, Fiscal Year Ended December 31, 1999 (1/17/01)
  Ol-P-67
                  December 31,2000 (12/4/00)                                                            Ol-P-166   Upper Skagit Indian Tribe, Fiscal Year Ended December 31,2000 (1/17/01)

                                                          r 1 2000                  March 31, 2001          Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
          Semiannual Report to the C ongress: 0 c t 0 b e    ,
                                           28
                                                                                                                                                      29
01-P-167    Tule RiverIndian Tribe, Fiscal Year Ended September 30, 1997 (1/17/01)                       01-P-283     Kipnuk Traditional Council, Fiscal Year Ended December 31, 200 I (3/16/01)
01-P-168    Tule River Indian Tribe, Fiscal Year Ended September 30, 1998 (1117/01)                      01-P-284
01-P-169   'Duckwater Shoshone Tribe, Fiscal Year Ended December 31,2000 (1/18/01)                                    Fort Belknap Community Council, Fiscal Year Ended September 30, 2000 (3/16/01)
                                                                                                         01-P-285
01-P-170    Duckwater Shoshone Tribe, Fiscal Year Ended December 31,1998 (1/18/01)                                    Quechan Indian Tribe (Fort Yuma Reservation), Fiscal Year Ended December 3 T, 1999
                                                                                                                      (3/20/01)
Ol-P-l71    Northwest Indian College, Fiscal Year Ended September 30,1999 (1/18/01)                     01-P-286
Ol-P-l72    Northwest Indian College, Fiscal Year Ended June 30, 2000 (1/18/01)                                       Quechan Indian Tribe (Fort Yuma Reservation), Fiscal Year Ended December 31, 2000
                                                                                                                      (3/20/01) *$48,364
01-P-173    Fort Bidwell Indian Community, Fiscal Year Ended September 30, 1997 (1/18/01)               01-P-306
01-P-174    Fort Bidwell Indian Community, Fiscal Year Ended September 30, 1998 (1/18/01)                            Chippewa Cree Tribe of the Rocky Boys Reservation, Fiscal Year Ended September 30, 2000
                                                                                                                     (3/30/01) *$168
01-P-175    Fort Bidwell Indian Community, Fiscal Year Ended September 30,1999 (1/18/01)                01-P-307     Redding Rancheria, Fiscal Year Ended December 31, 2001 (3/30/01)
01-P-176    Fort Bidwell Indian Community, Fiscal Year Ended September 30,2000 (1/18/01)                00-P-423
                                                                                                                     Karuk Tribe of California, Fiscal Year Ended September 30, 1998 (11/6/00)
Ol-P-l77    Owens Valley Indian Water Commission, Fiscal Year Ended June 30,2000 (1/18/01)
             *$8,505                                                                                    Bureau of Reclamation
01-P-178    Owens Valley Indian Water Commission, Fiscal Year Ended June 30, 2001 (1/18/01)
             *$5,400                                                                                    01-P-158
Ol-P-179    Guidiville Indian Rancheria, Fiscal Year Ended December 30, 1999 (1/18/01)                               North Dakota State Water Commission, Fiscal Year Ended June 30,2001 (1/16/01)
01-P-180    Guidiville Indian Rancheria, Fiscal Year Ended December 31, 2000 (1/18/01)
01-P-181    Native Village ofKotzebue, Kotzebue IRA, Fiscal Year Ended December 3 I, 200 I
                                                                                                        Fish and Wildlife Service
            (1/19/01) *$13,398                                                                          Ol-P-IO
01-P-185    Sitka Tribe of Alaksa, Fiscal Year Ended December 31, 1999 (1/23/01) *$87,519                            Kansas Department of Wildlife and Parks, Fiscal Year Ended June 30, 2001 (10/18/00)
                                                                                                        01-P-19
01-P-186    Sitka Tribe of Alaksa, Fiscal Year Ended December 31, 2000 (1/23/01)                                     South Dakota Department of Game, Fish and Parks, Fiscal Year Ended June 30, 2001
                                                                                                                     (10/20100)
01-P-193    Big Sandy Rancheria of Mono Indians, Fiscal Year Ended December 31, 2001 (1/24/01)         01-P-48
01-P-194    Point No Point Treaty Council, Fiscal Year Ended December 31, 2001 (1/24/01) *$8,910                    Mississippi Department ofEnvironmental Quality, Fiscal Year Ended June 30, 200 I
                                                                                                                    (11115/00)
01-P-207    Quinault Indian Nation, Fiscal Year Endei:l September 30,1999 (1/29/01) *$107,839          01-P-57
01-P-208    Quinault Indian Nation, Fiscal Year Ended September 30, 2000 (lf29/01) *$89,015                          North Carolina Wildlife Resources Commission, Fiscal Year Ended June 30, 2001 (11/28/00)
                                                                                                       01-P-58
01-P-221    Yerington Paiute Tribe, Fiscal Year Ended December 31,2000 (2/8/01)                                      North Dakota Game and Fish Department, Fiscal Year Ended June 30, 2002 (11/28/00)
                                                                                                       01-P-90
01-P-222    Central Council ofthe Tlingit and Haida Indians ofAlaska, Fiscal Year Ended                             IndIana Department of Natural Recources, Fiscal Year Ended June 30, 2000 (12/13/00)
                                                                                                       01-P-91
            December 31, 2000 (2/9/01)                                                                              OhIO Department of Natural Resources, Fiscal Year Ended June 30, 2001 (12/12/00)
                                                                                                       01-P-I08
01-P-226    Tulalip Tribes of Washington, Fiscal Year Ended December 31,2000 (2/14/01) *$138,785                    Flonda FIsh and Wildlife Commission, Fiscal Year Ended June 30, 2001 (12/19100)
                                                                                                       01-P-I09
01-P-227    Susanville Indian Rancheria, Fiscal Year Ended December 31, 2000 (2/14/01)                              Illinois Department of Natural Resources, Fiscal Year Ended June 30, 2001 (12/21100)
                                                                                                       01-P-153
01-P-228    Susanville Indian Rancheria, Fiscal Year Ended December 31, 2001 (2/14/01)                              Kentucky Department ofFish and Wildlife Resources, Fiscal Year Ended June 30, 200 I
                                                                                                                    (1/12/01)
01-P-236    Samish Indian Nation, Fiscal Year Ended December 31, 2001 (2/21/01)
01-P-238    Bums Paiute Tribe, Fiscal Year Ended December 31, 1999 (2/21/01)
01-P-239    Bums Paiute Tribe, Fiscal Year Ended December 31,2000 (2/21/01) *$68,201
                                                                                                       Geological Survey
01-P-258    Mentasta Lake Village Traditional Council, Fiscal Year Ended September 30, 1999 (3/1/01)
                                                                                                       01-P-16
            *$32,675                                                                                                Wyoming State Geological Survey, Fiscal Year Ended June 30, 200 I (10/19/00)
                                                                                                       01-P-68
01-P-259    Mentasta Lake Village Traditional Council, Fiscal Year Ended September 30, 2000                         Geological Survey ofAlabama/State Oil and Gas Board of Alabama, Fiscal Year Ended
            (311/01) *$23,062                                                                                       September 30, 2000 (12/4/00)
01-P-268    Confederated Tribes ofthe Colville Reservation, Fiscal Year Ended September 30, 2001
            (3/6/01)
01-P-272    Port Gamble S'klallam Tribe, Fiscal Year Ended December 31,2000(3/8/01) *$7,146
01-P-276    Confederated Tribes of Goshute Reservation, Fiscal Year Ended September 30, 1998
            (3/14/01)
01-P-277    Chicken Ranch Band of Me-Wuk Indians, Fiscal Year Ended December 31, 2000
            (3/14/01) *$31,268
OI-P-278    Bridgeport Indian Colony, Fiscal Year Ended December 31, 2000 (3/14/01) *$16,009
01-P-279    Bridgeport Indian Colony, Fiscal Year Ended December 31,2001 (3/14/01) *$!5,157
01-P-280    Kipnuk Traditional Council, Fiscal Year Ended December 31, 1998 (3/16/01) *$20,709
01-P-281    Kipnuk Traditional Council, Fiscal Year Ended December 31, 1999 (3/16/01) *$6,644
01-P-282    Kipnuk Traditional Council, Fiscal Year Ended December 31, 2000 (3/16/01)

    Semiannual Report to the Congress: October 1, 2000                      March 31, 2001
                                                                                                          Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                    30
                                                                                                                                          31
Insular Areas                                                                                                National Park Service
                                                                                                                                                                                                     -
                                                                                                             Ol-P-18    New Mexico Energy, Minerals and Natural Resources Department, Fiscal Year Ended
American Samoa                                                                                                          June 30, 2001 (10/19/00)
                                                                                                             Ol-P-34    Arkansas Department of Parks and Tourism, Fiscal Year Ended June 30, 2001 (11/1/00)
Ol-P-l        American Samoa Government, Indirect Cost Proposal, Fiscal Year Ended                           Ol-P-69    Pennsylvania Historical and Museum Commission, Fiscal Year Ended June 30, 2001 (12/5/00)
              September 30, 1998 (10/2/00)                                                                   Ol-P-97    Minnesota Department of Natural Resources, Fiscal Year Ended June 30, 200 I (12/14/00)
Ol-P-246      American Samoa Government, Indirect Cost Proposal, Fiscal Year Ended September 30, 1999
                                                                                                             Ol-P-I05   Wisconsin Department of Natural Resources, Fiscal Year Ended June 30, 2001 (12/19/00)
              (2/28/01)                                                                                      Ol-P-I06   Minnesota Historical Society, Fiscal Year Ended June 30, 2001 (12/19/00)
                                                                                                             Ol-P-110   Wyoming Department of State Parks and Cultural Resources (aka Wyoming Department of
Guam                                                                                                                    Commerce), Fiscal Year Ended June 30, 2001 (12/21/00)
                                                                                                             Ol-P-lll   Kentucky Department for Local Government, Fiscal Year Ended June 30, 200 I (12/21/00)
Ol-P-21       University of Guam, Indirect Cost Proposal, Fiscal Year Ended September 30, 200 I              Ol-P-159   Michigan Department of State, Fiscal Year Ended September 30, 2001 (1/17/01)
              (10/25/00)
                                                                                                             Office of Surface Mining Reclamation and Enforcement
u.S. Virgin Islands
                                                                                                             Ol-P-95    Commonwealth of Virginia Department of Conservation and Recreation, Fiscal Year Ended
Ol-P-60       Department ofPlanning and Natural Resources, Government of the Virgin Islands, Fiscal                     June 30, 2001 (12/14/00)
              Years 2000 and 2002 (11/29/00)
Ol-P-94       Virgin Islands Territorial Emergency Management Agency, Government ofthe Virgin Islands
              (12/14/00)
Ol-P-132      Central Service Cost Allocation Plan, Government ofthe Virgin Islands, Fiscal Years 2000 and
              2002 (1/8/01)
Ol-P-182      Department of Labor, Government ofthe Virgin Islands, Fiscal Years 2000 and 2002
              (1/22/01)
Ol-P-183      Department ofJustice, Government ofthe Virgin Islands, Fiscal Years 2000 and 2002
              (1/22/01)
Ol-P-209      Department ofHuman Services, Government ofthe Virgin Islands, Fiscal Years 2000 and
              2002 (1/31/01)
Ol-P-223      Department of Health, Government of the Virgin Islands, Fiscal Years 2000 and 2002 (2/9/01)
Ol-P-224      Virgin Islands Police Department, Government ofthe Virgin Islands, Fiscal Years 2000 and
              2002 (2/9/01)
Ol-P-254      Island Resources Foundation, Fiscal Year Ended June 30, 2002 (2/28/01)


Multi-Office
Ol-P-2        State of Washington Interagency Committee for Outdoor Recreation, Fiscal Year Ended
              June 30, 2000 (10/4/00)
Ol-P-3        State of Washington Interagency Committee for Outdoor Recreation, Fiscal Year Ended
              June 30, 2001 (10/4/00)
Ol-P-85       Anderson-Cottonwood Irrigation District, Fiscal Year Ended December 31, 1999 (12/12/00)
Ol-P-86       Anderson-Cottonwood Irrigation District, Fiscal Year Ended December 31, 2000 (12/12/00)
Ol-P-1l8      California Department ofFish and Game, Fiscal Year Ended June 30, 200 I (12/28/00) *$633




     Semiannual Report to the Congress: October 1, 2000                        March 31, 2001                   Semiannual Report to the Congress: October 1, 2000                   March 31, 2001
                                                  32                                                                                                     33
                                             Appendix 3                                                                                               Appendix 4

                       Monetary Impact of Audit Activities from                                               Non-Federal Funding Included in Montetary Impact of Audit Activities
                       October 1, 2000 through March 31, 2001                                                         During the 6-Month Period Ended March 31, 2001


                                                                                                        No. 01-1-107 - "Administrative Functions, Legislature ofthe Virgin Islands, Government ofthe Virgin Islands,"
                                                          FUNDS TO                                      dated December 2000. All ofthe $1,320,293 reported as monetary impact represents insular area funds.
                                                          BE PUT TO
                                      QUESTIONED         BETTER USE
                                                                              REVENUES                  No. 01-1-291 - "Administration and Collection ofExcise Taxes, Bureau oflntemalRevenue, Government of
          ACTIVITY'                     COSTS             (**and***)
                                                                                                        the Virgin Islands," dated March 200 1. All ofthe $1 ,027,096 reported as monetary impact represents insular
Bureau ofIndian Affairs                $1,033,463         $1,964,430                   o                area funds.

Bureau ofReclamation                         6,723           883,754                   o
                                                                                                        No. 01-1-303 - ''Billing and Collection Functions ofthe Virgin Islands Port Authority, Government ofthe Virgin
                                            30,183             59,100                  o                Islands," dated March 2001. All of the $2,086,162 reported as monetary impact represents insular area
Fish and Wildlife Service
                                                                                                        funds.
Insular Areas:   ***
     American Samoa                      2,241,683                   0                 o
  - Guam                                 3,147,789                   0                 o
  - Marshall Islands                     2,298,000                   0                 o
  - Northern Mariana Islands               146,174                    0                o
  - Republic ofPalau                        28,888                    0                o
   - U.S. Virgin Islands                   541,571          7,461,287                  o
Multi-Office                                         0             633                 o
                                                 ,
National Park Service                      441,949                    0                o
 Office ofSuiface Mining                    127,588                   0                o
 Reclamation and Enforcement




 TOTAL                                 $10,044,011                                      o

 • Costs for audits performed by the Defense contract Audit Agency are not inciuded.
 .. Inciudes monetary Impact of Indirect cost proposals negotiated.     .
 ... Monetary impact inciudes Federal and non-Federal funds (see AppendiX 4>'




      Semiannual Report to the Congress: October 1, 2000                               March 31, 2001        Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                      34                                                                                                                     35
                                            Appendix 5                                                                                          Appendix 5

                                                Table I                                                                                            Table II

             Inspector General Reports With Questioned Costs                                                    Inspector General Reports With Recommendations
                                                                                                                         That Funds Be Put to Better Use
                                                     No. of    Questioned       unsupported
                                                     Reports     Costs             Costs'
                                                                                                                                                                No. of Reports'                Dollar Value' •
A. For which no management decision had                         $180,704,133        $3,431,685
                                                         69                                       A, For which no management decision had been made by
been made by the commencement ofthe                                                                                                                                                               $322,824,417
                                                                                                                                                                         32
reporting period                                                                                  the commencement ofthe reporting period

B. Which were issued during the reporting                24      $10,044,011                  0
                                                                                                  B. Which were issued during the reporting period                       45                          10,369,204
period
    Total (A+B)                                          93     $190,748144         $3431.685
                                                                                                     Total (A+B)                                                         77                       $333.193,621
C. For which a management decision was                   10       $1,034,795            $8,340
made during the reporting period                                                                  C. For which a management decision was made during the
                                                                                                                                                                         42                        $11,669,701
                                                                   $1,034,795           $8,340    reporting period
   (I) dollar value ofdisallowed costs                   10

                                                          0                 0                 0      (I) dollar value of recommendations that were agreed
   (ii) dollar value ofcosts allowed                                                                                                                                     41                          $8,356,613
                                                                                                         to by management
D, For which no management decision had                  83      $189,713,349       $3,423,345
been made by the end ofthe reporting period                                                         (ii) dollar value of recommendations that were not
                                                                                                                                                                          1                          $3,313,088
                                                                                                         agreed to by management
E. For which no management decision was                  70      $185,191,332       $3,423,345
made within 6 months ofissuance                                                                   D. For which no management decision had been made by
                                                                                                                                                                         35                       $321,523,920
                                                                                                  the end ofthe reporting period
 • Unsupported costs are included in questioned costs.
                                                                                                  E, For which no management decision was made within
                                                                                                                                                                         31                       $318,661,582
                                                                                                  6 months ofissuance

                                                                                                     • Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and the
                                                                                                  disagreed categories.
                                                                                                    * * Amounts include monetary impacts of preaward audits and indirect cost proposals negotiated.




     Semiannual Report to the Congress: October 1, 2000                     March 31, 2001            Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                     36                                                                                                                 37
                                        Appendix 5                                                                                       Appendix 6

                                          Table III                                                         Summary ofReports Over 6-Months Old Pending
                                                                                                                      Management Decisions
                   Inspector General Reports With Lost or                                       This listing includes internal, contract (except preawards), grant, and single audit reports that were
                        Potential Additional Revenues                                     over 6-months old on March 31, 200 I and still pending a management decision. It provides report number, title,
                                                                                          issue date, number ofunresolved recommedations, and unresolved amount ofmonetary benefits identified in
                                                                                          the report. Note: The insular area reports contain recommendations made specifically to the insular area
                                                                                          governors and other territorial officials, who do not report to the Secretary and are not subject to the policy,
                                                      NO. of Reports      Dollar Value    guidance, and administrative oversight established by the Assistant Secretary for Policy, Management and
                                                                                          Budget.
A. For which no management decision had been made           13              $70,649,262
by the commencement ofthe reporting period
                                                                                          Internal Audits
                                                            Q                         0
B. Which were issued during the reporting period
                                                                                          Bureau of Indian Affairs
                                                            13              $70,649.262
   Total (A+B)                                                                            99-1-937        Auditors Report on Bureau of Indian Affairs Consolidated Comparative Financial Statements
                                                                                                          for Fiscal Years 1998 and 1997 (9/24/99) 22 Recommendations Unresolved
C. For which a management decision was made during          1                $5,314,000
the reporting period                                                                      Insular Areas
   (i) dollar value of recommendations that were             1               $3,800,000   American Samoa
       agreed to by management
                                                                                          93-1-1600       Grant Administration, Department of Education, American Samoa Government (9/30/93)
  (ii) dollar value ofrecommendations that were not          1               $1,514,000
                                                                                                          2 Recommendations and $306,637 Unresolved
      agreed to by management

D. For which no management decision had been made                           $65,335,262   Commonwealth ofthe Northern Mariana Islands
                                                            12
by the end ofthe reporting period
                                                                                          94-1-936        Follow-up ofRecommendations Concerning the Economic Development Loan Fund,
E. For which no management decision was made within         12              $65,335,262                   Commonwealth Development Authority (7/18/94) 2 Recommendations Unresolved
6 months ofissuance                                                                       96-1-596        Management of Public Land, Commonwealth of the Northern Mariana Islands (3/20/96)
                                                                                                          6 Recommendations and $145,877,257 Unresolved
                                                                                          99-1-147        Management of Federal Grants, Public School System, Commonwealth ofthe Northern
                                                                                                          Mariana Islands (12/15/98) I Recommendation and $17,044 Unresolved




      Semiannual Report to the Congress: October 1, 2000               March 31, 2001          Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                      38                                                                                       39
                                                                                                             u.s. Virgin Islands
Guam
               Selection, Procurement, and Administration of Water Distribution Projects, Public Utility
                                                                                                             91-1-467      Follow-~p ofRecommendations Contained in the Report on the Road Fund, Gove~ent of
92-1-597                                                                                                                    the Vlrgm Islands (2/19/91) 1 Recommendation Unresolved
               Agency of Guam, Government of Guam (3/20/92) 2 Recommendations Unresolved
                                                                                                             93-1-363       Inmate Care, Rehabilitation, and Safety, Bureau of Corrections, Government of the Virgin
               Selected Special Revenue Funds, Government of Guam (3/15/93) 7 RecommendatIOns and
93-1-706                                                                                                                    Islands (12/31/92) 10 Recommendations Unresolved
               $39,330,411 Unresolved                                                                        93-1-572       Supply and Equipment Management, Department ofEducation, Government of the Virgin
               Impact of the Compact of Free Association on the Government of Guam (6/28/93)
93-1-1195                                                                                                                  Islands (2/19/93) 9 Recommendations and $310,000 Unresolved
               I Recommendation and $15,911,978 Unresolved                                                   93-1-670      Personnel, Property Management, and Procurement Practices, Bureau of Corrections
               Guam Governmentwide Travel Practices (11/26/93) 14 Recommendations and $1,689,650
94-1-106                                                                                                                   Government of the Virgin Islands (3/11/93) 14 Recommendations and $265,823 Unr:solved
               Unresolved                                                                                    96-E-828      Accountmg Controls for Disaster Assistance Funds, Police Department, Government of the
               Guam Legislature, Government of Guam (3/24/97) 5 Recommendations and $1,004,084
97-1-591                                                                                                                   Vlrgm Islands (5/31/96) 2 Recommendations Unresolved
                Unresolved                                                                                   97-1-40       Division ofAgriculture, Department ofEconomic Development and Agriculture,
                Follow-up ofRecommendations Concerning Personnel and Payroll Practices, Legislative
97-1-1051                                                                                                                  Government of the Virgin Islands (10/21/96) 8 Recommendations and $90000 Unresolved
                Branch, Government of Guam (7/31/97) I Recommendation Unresolved                             97-E-189      Subgrant Administration for Disaster Assistance Funds, Office ofManage~ent and Budget,
                School Bus Operations, Department of Public Works, Government of Guam (9/30/97)
97-1-1294                                                                                                                  Government of the Vlrgm Islands (11/26/96) 2 Recommendations Unresolved
                6 Recommendations and $3,584,034 Unresolved                                                  97-E-239      Procurement Practices for Hurricane-Related Debris Removal, Department of Public Works
                Protection and Advocacy of the Marianas, Territory of Guam (12/23/97)
 98-1-179                                                                                                                  Government of the Virgin Islands (12/17/96) I Recommendation Unresolved                   '
                10 Recommendations and $741,687 Unresolved                                                   97-1-243      Workmen's Compensation Program, Government ofthe Virgin Islands (12/30/96)
                Legislature Capital Improvement Fund, Guam Legislature, Government of Guam (2/20/98)
 98-1-264                                                                                                                   15 RecommendatIOns and $2,530,000 Unresolved                     .
                4 Recommendations and $4, 159,110 Unresolved                                                 97-E-279      Accounting Controls for Disaster Assistance Funds, Virgin Islands Water and Power
                 On-Call Substitute Teachers, Department of Education, Government of Guam (10/21/98)
 99-1-13                                                                                                                   Authority (1/7/97) 3 Recommendations Unresolved
                I Recommendation Unresolved                                                                  98-E-98       Expenditures Claimed Against the Federal Emergency Management Agency's Community
                Federal Grant Program Travel Activities, Department of Education, Government of Guam
 99-1-255                                                                                                                  Disaster Loan, Government of the Virgin Islands (11/12/97)
                (2/25/99) 7 Recommendations and $47,879 Unresolved                                                         4 Recommendations and $21,700 Unresolved
                Extended Day Program, Department of Education, Government of Guam (5/11/99)
 99-1-455                                                                                                    98-1-188      Internal Revenue Taxes, Bureau ofInternal Revenue, Government ofthe Virgin Islands
                8 Recommendations and $2,661,634 Unresolved                                                                (12/30/97) I Recommendation Unresolved
                                                                                                             98-1-191      Building Permit Fees, Department ofPlanning and Natural Resources, Government of the
 Republic ofthe Marshall Islands                                                                                           Vlrgm Islands (12/30/97) 7 Recommendations and $143,446 Unresolved
                                                                                                             98-1-263      Sewage System User Fees, Government of the Virgin Islands (2/20/98)
 94-1-21         Capitol Relocation Project, Republic of the Marshall Islands (10/18/93) 2 Recommendations                 5 Recommendations and $897,212 Unresolved
                 Unresolved                                                                                  98-1-384      Hurricane-Related Contracting, Department of Education, Government ofthe Virgin Islands
 99-1-952        Marshall Islands Development Bank, Republic of the Marshall Islands (9/30/99)                             (3/31/98) 4 Recommendations and $5,418 Unresolved
                 4 Recommendations and $382,888 Unresolved                                                   98-1-468      Follow-up ofRecommendations Relating to the Bureau of Corrections, Department of
                                                                                                                           Justice, Government ofthe Virgin Islands (5/29/98) 6 Recommendations Unresolved
                                                                                                             98-1-670      Interfund Loans and Federal Grant Balances, Government of the Virgin Islands (9/9/98)
                                                                                                                           14 Recommendations and $158,100,000 Unresolved
                                                                                                             99-1-365      Foil ow-up of Recommendations Relating to Personnel Management Practices, Division of
                                                                                                                           Personnel, Government of the Virgin Islands (3/26/99) 3 Recommendations
                                                                                                                           and $24,300,000 Unresolved

                                                                                                             Minerals Management Service
                                                                                                             00-1-279      Oil and Gas Transportation Allowances and Gas Processing Allowances, Minerals
                                                                                                                           Management Service (3/27/00) 1 Recommendation and $1,900,000 Unresolved




                                                                                                                 Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
           Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                                                                                                                                 41
                                           40
                                                                                                                                                                                                              --,




                                                                                                             Fish and Wildlife Service
National Park Service
                                                                                                             98-E-198   U.S. Fish and Wildlife Service Federal Aid Grants to Colorado for 2 Fiscal Years Ended
             . Follow-up of Maintenance Activities, National Park Service (3/27/98)
98-1-344                                                                                                                June 30, 1995 (1/16/98) I Recommendation and $1,453,632 Unresolved
               2 Recommendations Unresolved                                               .                  98-E-681   U.S. Fish and Wildlife Service Federal Aid Grants to New York Department of
               Land Acquisition Activities, National Park Service (5/28/99) 4 RecommendatlOns and
99-1-518                                                                                                                Environmental Conservation for 2 Fiscal Years Ended March 31, 1996 (9/17/98)
              $3,188,000 Unresolved                                                                                     $1,743,935 Unresolved
                                                                                                             98-E-705   U.S. Fish and Wildlife Service Federal Aid Grants to Rhode Island Department of
Office of the Secretary                                                                                                 Environmental Management, Division of Fish and Wildlife, for 2 Fiscal Years Ended
                                                                                                                        June 30, 1996 (9/30/98) 8 Recommendations and $1,104,906 Unresolved
              Independent Auditors Report on Departmental Offices Financial Statements for Fiscal Year       99-E-394   U.S. Fish and Wildlife Service Federal Aid Grants to Arkansas for 2 Fiscal Years Ended
00-1-586
              1999 (7/14/00) 1 Recommendation Unresolved                                                                June 30,1997 (3/29/99) 14 Recommendations and $881,800 Unresolved
                                                                                                             99-E-727   U.S. Fish and Wildlife Service Grants to Oregon Department ofFish and Wildlife for
Office of the Special Trustee for American Indians                                                                      2 Fiscal Years Ended June 30, 1996 (8/4/99) 10 Recommendations Unresolved
                                                                                                             99-E-728   U.S. Fish and Wildlife Service Grants to Puerto Rico Department of Natural Resources for
              Financial Statements for Fiscal Year 1997 for the Office of the Special Trustee for American              2 Fiscal Years Ended June 30,1996 (8/4/99) 7 Recommendations Unresolved
99-1-372
              Indians Tribal and Other Special Trust Funds and Individual Indian Momes Trust Funds           99-E-729   U.S. Fish and Wildlife Service Federal Aid Grants to Mississippi Department ofWildlife,
              Managed by the Office of Trust Funds Management (3/26/99) 1 RecommendatlOn                                Fisheries and Parks for 2 Fiscal Years Ended June 30, 1997 (8/4/99)
              Unresolved                                                                                                10 Recommendations Unresolved
                                                                                                             99-E-923   U.S. Fish and Wildlife Service Federal Aid Grants to Idaho Department ofFish and Game
                                                                                                                        for 2 Fiscal Years Ended June 30, 1997 (9/22/99) 9 Recommendations and $308,548
 Contract and Grant Audits
                                                                                                                        Unresolved
                                                                                                             00-E-246   U.S. Fish and Wildlife Service Federal Aid Grants and Payments Awarded to Vermont
 Bureau of Indian Affairs                                                                                               Agency ofNatural Resources, Department ofFish and Wildlife, for 2 Fiscal Years Ended
 94-E-784      Costs Claimed by Diversified Business Technologies Corporation Under Contract  ,                         June 30,1997 (2/25/00) 9 Recommendations and $791,021 Unresolved
               No.CBM000047 (6/10/94) $825,170 Unresolved (Circumstances beyond the Bureau s                 00-E-447   U.S. Fish and Wildlife Service Federal Aid Grants and Payments Awarded to North
               control have delayed resolution of the costs.)                                                           Carolina Department of the Environment, Health and Natural Resources, Division of
               Costs Claimed by Diversified Business Technologies Corporation Under Contract   ,                        Wildlife Resources Commission, for Fiscal Years 1996 and 1997 (5/31/00)
 94-E-919                                                                                                               9 Recommendations and $3,080,178 Unresolved
               No.CBMOOOI47 (6/30/94) $247,414 Unresolved (Circumstances beyond the Bureau s
               control have delayed resolution of the costs.)                             .   .              00-E-702   U.S. Fish and Wildlife Service Federal Aid Grants to New Jersey Department of
               Bomar Inc Request for Equitable Adjustment Submitted Under Bureau oflndmn AffaIrs                        Environmental Protection, Division of Fish, Game and Wildlife, for Fiscal Years 1996 and
 98-E-709
               Contra~t N~. 145CBH002116 (9/30/98) $2,169,615 Unresolved (Circumstances beyond the                      1997 (9/22/00) 7 Recommendations and $31,888 Unresolved
               Bureau's control have delayed resolution of the costs.).           .
 00-E-267
               Lower Brule Sioux Tribe, Costs Incurred Under Bureau of Indmn Affalfs Contract                Geological Survey
               No. A002506614 for the Period Ended May 1999 (3/9/00) I RecommendatlOn and $59,715
                Unresolved                                                                                   93-E-339   TGS Technology, Inc., Closing Statement (12/22/92) $520,235 Unresolved


  Insular Areas                                                                                              National Park Service

  Republic of the Marshall Islands                                                                           00-E-289   JCM Control Systems, Inc., Costs Billed from January 1, 1997, through July 16, 1999,
                                                                                                                        Under National Park Service Contract No. 1443CX300094906 (3/24/00) I Recommendation
  95-E-951      Grant and Trust Funds Provided for the Rongelap Resettlement Project, Republic of                       and $83,125 Unresolved
                the Marshall Islands (5/22/95) $215,960 Unresolved




                                                                                                                 Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
       Semiannual Report to the Congress: October 1, 2000                         March 31, 2001
                                                                                                                                                 43
                                       42
Single Audits                                                                                           Fish and Wildlife Service

Bureau of Indian Affairs                                                                                97-A-843      National Tropical Botanical Garden, Fiscal Year Ended December 31, 1995
                                                                                                                      (5/15/97) 5 Recommendations Unresolved
            Northwestern Band of the Shoshoni Nation, Fiscal Year Ended December 30,1994                97-A-993      Virginia, Fiscal Year Ended June 30, 1995 (8/8/97) 2 Recommendations Unresolved
96-A-ll22
            (08/15/96) I Recommendation Unresolved (Circumstances beyond the Bureau's control                         (Unresolved recommendations pertain to the National Park Service.)
                                                                                                        97-A-1l80    Wisconsin, Fiscal Year Ended June 30, 1995 (915/97) 3 Recommendations and $26,410
            have delayed resolution of the recommendation.)                            .
99-A-615    Porcupine School, Fiscal Year Ended June 30, 1997 (6/18/99) 4 RecommendatIOns                            Unresolved (Unresolved recommendations pertain to the National Park Service.)
                                                                                                        97-A-1241    South Carolina, Fiscal Year Ended June 30, 1996 (9/17/97) 2 Recommendations Unresolved
            Unresolved
00-A-34     Wounded Knee District School, Fiscal Year Ended June 30, 1997 (11/15/99)                                 (Unresolved recommendations pertain to the National Park Service.)
                                                                                                        98-A-148     North Carolina, Fiscal Year Ended June30, 1996 (12/2/97) I Recommendation Unresolved
            5 Recommendations Unresolved
                                                                                                        98-A-149     Arizona, Fiscal Year Ended June 30, 1996 (12/2/97) I Recommendation Unresolved
OO-A-72     Buena Vista Rancheria Band of Me-Wuk Indians, Fiscal Year Ended December 31, 1996
            (11/5/99) 5 Recommendations Unresolved                                                                   (Unresolved recommendation pertains to the National Park Service.)
OO-A-76     Big Pine Paiute Tribe of the Owens Valley, Fiscal Year Ended December 31, 1995 (12/1/99)
            12 Recommendations Unresolved                                                               Insular Areas
OO-A-I09    Seminole Nation of Oklahoma, Fiscal Year Ended September 30, 1995 (12/7/99)
            10 Recommendations Unresolved
                                                                                                        Commonwealth of the Northern Mariana Islands
OO-A-455    Seminole Tribe ofFlorida, Fiscal Year Ended June 30, 1998 (5/19100) 11 Recommendations
            Unresolved                                                                                  9l-A-731
OO-A-456    Hopi Junior/Senior High School, Fiscal Year Ended June 30, 1999 (5/19/00)                                 Commonwealth Utilities Corporation, Fiscal Year Ended September 30,1988 (4/26/91)
                                                                                                                       15 Recommendations and $6,087,882 Unresolved
            4 Recommendations Unresolved                                                                91-A-803
OO-A-458    Second Mesa Day School, Fiscal Year Ended June 30, 1999 (5/19100) 3 Recommendations                       Mariana Islands Housing Authority, Fiscal Year Ended September 30,1986 (5/7/91)
                                                                                                                      I Recommendation and $1,537,321 Unresolved
            Unresolved                                                                                  91-A-823
OO-A-459    Enemy Swim Day School, Fiscal Day Ended September 30,1998 (5/19/00)                                       Mariana Islands Housing Authority, Fiscal Year Ended September 30, 1987 (5/10/91)
                                                                                                                      I Recommendation and $455,857 Unresolved
            3 Recommendations Unresolved                                                               91-A-824
OO-A-555    Sherwood Valley Band of Pomo Indians, Fiscal Year Ended December 31, 1996 (6/30/00)                      Mariana Islands Housing Authority, Fiscal Year Ended September 30,1988 (5/10/91)
                                                                                                                      I Recommendation and $196,593 Unresolved
            10 Recommendations Unresolved                                                              92-A-1l79
OO-A-578    Iowa Tribe of Oklahoma, Fiscal Year Ended December 31, 1997 (7/14/00)                                    Mariana Islands Housing Authority, Fiscal Year Ended September 30,1989 (8/13/92)
                                                                                                                     1 Recommendation and $168,711 Unresolved
            4 Recommendations Unresolved                                                               93-A-110
OO-A-579    Quartz Valley Indian Reservation, Fiscal Year Ended December 31, 1993 (7/14/00)                          Mariana Islands Housing Authority, Fiscal Year Ended September 30,1990 (10/26/92)
                                                                                                                     I Recommendation and $124,450 Unresolved
            I Recommendation and $4,579 Unresolved                                                     93-A-225
OO-A-580    Quartz Valley Indian Reservation, Fiscal Year Ended December 31, 1994 (7/14/00)                          Mariana Islands Housing Authority, Fiscal Year Ended September 30,1991 (11/19/92)
                                                                                                                     I Recommendation and $1, 119,377 Unresolved
            I Recommendation and $12,672 Unresolved                                                    93-A-1563     Commonwealth Development Authority, Fiscal Year Ended September 30, 1988 (9/13/93)
                                                                                                                     52 Recommendations and $4,998,398 Unresolved
                                                                                                       94-A-525      Commonwealth Development Authority, Fiscal Year Ended September 30, 1989 (4/15/94)
                                                                                                                    45 Recommendations and $6,078,308 Unresolved
                                                                                                       94-A-574     Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1990 (5/6/94)
                                                                                                                    61 Recommendations and $166,509 Unresolved
                                                                                                       94-A-818     Commonwealth Utilities Corporation, Fiscal Year Ended September 30, 1991 (6/16/94)
                                                                                                                    42 Recommendations Unresolved (3/29/99) 47 Recommendations and $596,151 Unresolved
                                                                                                       OO-A-176     Commonwealth of the Northern Mariana Islands, Fiscal Year Ended September 30, 1998
                                                                                                                    (1/6/00) 48 Recommendations and $364,109 Unresolved
                                                                                                       OO-A-487     Karidat, Fiscal Year Ended September 30, 1994 (6/6/00) 11 Recommendations Unresolved
                                                                                                       OO-A-505     Karidat, Fiscal Year Ended September 30, 1995 (6/13/00) 8 Recommendations Unresolved




    Semiannual Report to the Congress: October 1, 2000                     March 31, 2001                  Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                    44                                                                                                     45
                                                                                                                                                                                         ---------------.
Federated States Of Micronesia                                                                            Republic of Palau

96-A-482     Federated States of Micronesia National Government, Fiscal Year Ended September 30, 1994     92-A-368      Palau Community Action Agency, Fiscal Year Ended September 30,1990 (1/24/92)
             (2/29/96) 19 Recommendations and $57,900 Umesolved                                                         I Recommendation and $2,593 Umesolved
97-A-244     Federated States of Micronesia National Government, Fiscal Year Ended                        92-A-885      Republic of Palau, Fiscal Year Ended September 30, 1989 (6/5/92) 1 Recommendation
             September 30,1995 (12/23/96) 22 Recommendations and $166,523 Unresolved                                    and $40,262 Umesolved
98-A-386     Federated States ofMicronesia National Government, Fiscal Year Ended                        93-A-I053      Palau Community Action Agency, Fiscal Year Ended September 30, 1991 (5/11/93)
             September 30, 1996 (3/31/98) 23 Recommendations and $109,560 Unresolved                                    12 Recommendations Unresolved
99-A-189     Federated States ofMicronesia National Government, Fiscal Year Ended
                                                                                                         93-A-1629     Republic of Palau, Fiscal Year Ended September 30, 1990 (9/30/93) I Recommendation
             September 30, 1997 (1/12/99) 16 Recommendations Unresolved                                                and $401,843 Umesolved
OO-A-139     Federated States ofMicronesia National Government, Fiscal Year Ended September 30, 1998     94-A-499      Republic of Palau, Fiscal Year Ended September 30, 1991 (4/6/94) II Recommendations
             (12/10/99) 18 Recommendations and $97,396 Unresolved                                                      and $517,693 Unresolved
                                                                                                         94-A-882      Republic of Palau, Fiscal Year Ended September 30, 1992 (6/27/94) 37 Recommendations
Chuuk                                                                                                                  and $4,085 Unresolved
                                                                                                         98-A-130      Republic of Palau, Fiscal Year Ended September 30, 1996 (11/19/97) 19 Recommendations
91-A-505     Chuuk State Government, Fiscal Year Ended September 30, 1989 (2/20/91)                                    Umesolved
             I Recommendation and $665,817 Unresolved                                                    98-A-176      Palau Community Action Agency, Fiscal Year Ended September 30, 1994 (12/12/97)
92-A-519     Chuuk State Government, Fiscal Year Ended September 30, 1990 (2/25/92)                                    16 Recommendations and $4,769 Unresolved
             1 Recommendation and $1,940,938 Unresolved                                                  98-A-177     Palau Community Action Agency, Fiscal Year Ended September 30, 1995 (12/12/97)
94-A-374     State ofChuuk, Federated States of Micronesia, Fiscal Year Ended September 30, 1992                       12 Recommendations and $43,843 Unresolved                         .
             (2/28/96) 15 Recommendations Unresolved                                                     99-A-37      Republic of Palau, Fiscal Year Ended September 30, 1997 (10/20/98) 22 Recommendations
                                                                                                                      and $1,029,762 Unresolved
Kosrae                                                                                                   99-A-333     Palau Community Action Agency, Fiscal Year Ended September 30,1996 (3/1/99)
                                                                                                                      13 Recommendations and $2,310 Unresolved
94-A-367     State of Kosrae, Federated States of Micronesia, Fiscal Year Ended September 30,1992        99-A-960     Palau Community Action Agency, Fiscal Year Ended September 30,1997 (9/30/99)
             (2/24/94) 9 Recommendations Umesolved                                                                    5 Recommendations Umesolved
                                                                                                        OO-A-O        Republic of Palau, Fiscal Year Ended September 30, 1998 (10/5/99) 14 Recommendations
Poll1lpei                                                                                                             and $424,084 Unresolved
                                                                                                        OO-A-393      Palau, Community Action Agency, Fiscal Year Ended September 30, 1998 (4/24/00)
91-A-398     Pohnpei State Government, Fiscal Year Ended September 30, 1989 (2/4/91)                                  7 Recommendations Unresolved
             I Recommendation and $98,216 Umesolved
                                                                                                        U.S. Virgiu Islands
94-A-527     State ofPohnpei, Federated States of Micronesia, Fiscal Year Ended September 30,1992
             (4/19/94) 21 Recommendations and $2,764 Unresolved                                         98-A-154      Government of the Virgin Islands, Fiscal Year Ended September 30, 1994 (12/2/97)
                                                                                                                      5 Recommendations and $632,247 Unresolved
Yap
                                                                                                        National Park Service
94-A-371     State of Yap, Federated States of Micronesia, Fiscal Year Ended September 30, 1992
             (2/25/94) 22 Recommendations Unresolved                                                    98-A-194     Georgia Trust for Historic Preservation, Inc., Fiscal Year Ended March 31, 1997 (12/24/97)
                                                                                                                      2 Recommendations Unresolved
Guam                                                                                                    98-A-229     National Institute for the Conservation of Cultural Property, Inc., Fiscal Year Ended
                                                                                                                     December 31, 1996 (1/15/98) I Recommendation Unresolved
OO-A-195     Government of Guam, Fiscal Year Ended September 30,1998 (1/25/00) 64 Recommenations        98-A-627     South Carolina Department ofParks, Recreation and Tourism, Fiscal Year Ended
             and $2,305,544 Umesolved                                                                                June 30, 1996 (8/6/98) 9 Recommendations Umesolved
                                                                                                        98-A-687     National Conference of State Historic Preservation Officers, Fiscal Year Ended
                                                                                                                     December 31, 1997 (9/25/98) 2 Recommendations Unresolved



      Semiannual Report to the Congress: October 1, 2000                    March 31, 2001
                                                                                                            Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                      46
                                                                                                                                            47
                                                                                                                                                                                                                                -,




                                                 Appendix 7                                                             Bureau of Reclamation

                       Summary oflnternal Reports Over 6 Months                                                         92-1-1128      Repayment ofMunicipal and Industrial Water Supply Investment Costs (8/13/92)
                                                                                                                                       2 Recommendations
                           Old Pending Corrective Action                                                                94-1-930       Irrigation ofIneligible Lands (7/11194) 3 Recommendations
                                                                                                                        95-1-870      Recreation Management Activities at Selected Sites (5/17/95) 2 Recommendations
      This is a listing of internal reports with management decisions over 6 months old for which corrective            95-1-1376     Follow-up ofRecovery of Operation and Maintenance Program Expenses
 action has not been completed. It provides report number, title, issue date, and the number of                                       (9/29/01) I Recommendation
 recommendations without final corrective action. These reports continue to be monitored by the Focus                   98-1-383      Central Valley Project Restoration Fund, Bureau of Reclamation (3/31198)
 Leader for Management Control and Audit Follow-up, Assistant Secretary for Policy, Management and                                    2 Recommendations
 Budget, for completion of corrective action. Note: The insular area reports contain recommendations made               99-1-133      Identification of Unneeded Acquired Lands, Bureau of Reclamation (12/21/98)
 specifically to the insular area governors and other territorial officials, who do not report to the Secretary and                   2 Recommendations
 are not subject to the policy, guidance, and administrative oversight established by the Assistant Secretary for      99-1-588
                                                                                                                                     Lower Brule Sioux Rural Water System, Mni Wiconi Rural Water Supply Project, Bureau of
 Policy, Management and Budget.                                                                                                      ReclamatlOn (6/24/99) I Recommendation
                                                                                                                       99-1-627      Oglala Sioux Rural Water Supply System, Mni Wiconi Rural Water Supply Project, Bureau
Bureau of Indian Affairs                                                                                                             of ReclamatlOn (6/29/99) 4 Recommendations
                                                                                                                       00-1-270
                                                                                                                                     Follow-up ofRecommendations Concerning Repayment ofMunicipal and Industrial Water
95-1-598         Bureau ofIndian Affairs Principal Financial Statements for Fiscal Years 1993 and 1994
                                                                                                                                     Supply Investment Costs, Bureau ofReclamation (3/31/00) I Recommendation
                 (2/28/95) 2 Recommendations                                                                           00-1-376      Concessions Managed by the Bureau of Reclamation (5/8/00) 5 Recommendations
95-1-1402        Wapato Irrigation Project, Bureau ofIndian Affairs (9/30/95) 2 Recommendations
96-1-641         Indian Irrigation Projects, Bureau of Indian Affairs (3/29/96) 12 Recommendations                     Fish and Wildlife Service
97-1-504         Direct and Guaranteed Loan Programs, Eastern Area Office, Bureau ofIndian Affairs
                 (3/10/97) I Recommendation                                                                            95-1-376      Concession Fees, U.S. Fish and Wildlife Service (1/17/95) I Recommendation
97-1-771         General Controls Over Automated Information Systems, Operations Service Center, Bureau                97-1-1302     Partners for Wildlife Habitat Restoration Program, U.S. Fish and Wildlife
                 of Indian Affairs (4/30/97) 5 Recommendations                                                                       Service (9/29/97) 3 Recommendations
97-1-834         BureauofIndian Affairs Consolidated Financial Statements for Fiscal Years 1995 and 1996               97-1-1305     Automated Law Enforcement System, U.S. Fish and Wildlife Service (9/30/97)
                 (5/9/97) 1 Recommendation                                                                                           2 Recommendations
98-1-483         Follow-up of General Controls Over Automated Information Systems, Operations Service                 99-1-162       Land Acquisition Activities, U.S. Fish and Wildlife Service (12/29/98) 3 Recommendations
                 Center, Bureau of Indian Affairs (6/10/98) 4 Recommendations                                         00-1-226
                                                                                                                                     Deferred Maintenance, U.S. Fish and Wildlife Service (3/10/00) 3 Recommendations
98-1-703         Agricultural Leasing and Grazing Activities, Fort Peck Agency, Bureau ofIndian Affairs
                 (9/30/98) 2 Recommendations                                                                          Geological Survey
00-1-597         Independent Auditors Report on Bureau of Indian Affairs Financial Statements for Fiscal
                 Year 1999 (7/28/00) 7 Recommendations                                                                99-1-404      U.S. Geological Survey Financial Statements for Fiscal Years 1997 and 1998
                                                                                                                                    (3/31/99) I Recommendation
Bureau of Land Management
                                                                                                                      Insular Areas
92-1-828        Onshore Geophysical Exploration Program (5/26/92) 2 Recommendations
95-1-379        Follow-up of Recommendations Relating to Bureau of Land Management User Charges                       Commonwealth ofthe Northern Mariana Islands
                for Mineral-Related Document Processing (1/23/95) 2 Recommendations
95-1-747        Right-of-Way Grants, Bureau of Land Management (3/31/95) 6 Recommendations                            94-1-1323     Utilities Rate Structure, Commonwealth of the Northern Mariana Islands (9/30/94)
98-1-419        The Adopt-a-Horse Program, Bureau of Land Management (4/30/98) 2 Recommendations                                    3 Recommendations
99-1-395        Administration of Revenues Due From Helium Produced on Federal Leases, Bureau of                      95-1-106      Contracting and Contract Administration, Commonwealth Utilities Corporation,
                Land Management (3/31/99) 3 Recommendations                                                                         Commonwealth of the Northern Mariana Islands (11/14/94) 5 Recommendations
99-1-677        Rangelands Improvement Program, Bureau of Land Management (7/28/99)                                   99-1-356      Discretionary and Reprogrammed Funds, Office of the Governor, Commonwealth of the
                I Recommendation                                                                                                    Northern Mariana Islands (3/26/99) 2 Recommendations
99-1-808        Cultural Resource Management, Bureau of Land Management (9/3/99)
                2 Recommendations
00-1-448        Bureau of Land Management Financial Statements for Fiscal Years 1998 and 1999
                (5/18/00) 3 Recommendations
     Semiannual Report to the Congress: October 1, 2000                               March 31, 2001
                                                                                                                          Semiannual Report to the Congress: October 1, 2000                        March 31, 2001
                                     48
                                                                                                                                                          49
                                                                                                       Minerals Management Service
Guam
               Government of Guam Retirement Fund (9/18/92) 7 Recommendations                          97-1-1042   Royalty Management Program's Automated Information Systems, Minerals Management
92-1-1360
               Programs and Operations, Department ofVocational Rehabilitation, Government ofGuam                  Service (7/31/97) I Recommendation
98-1-335
               (3/16/98) 3 Recommendations                                                             98-1-484    Minerals Management Service's Work Regarding Underpricing of California Crude Oil
98-1-570       Assessment and Collection of Gross Receipts Taxes, Department of Revenue and                        (6/10/98) I Recommendation
               Taxation, Government of Guam (7/17/98) 4 Recommendations                                00-1-243    Criminal Referral Process, Offshore Civil/Criminal Penalties Program, Minerals Management
               Operational Funding Status, Department of Education, Government of Guam (8/28/98)                   Service (2/29/00) 2 Recommendations
98-1-643
               2 Recommendations                                                                       00-1-333    Internal Controls Over the Accounting System, Financial Management Branch, Minerals
                                                                                                                   Management Service (3/31/00) I Recommendation
Republic of Palau                                                                                      00-1-647    General and Application Controls Over the Technical Information Management System,
                                                                                                                   Offshore Minerals Management, Minerals Management Service (8/31/00)
92-1-1368       Billings and Collections ofthe Republic of Palau' s Gross Revenue Tax (9/28/92)                    7 Recommendations
                3 Recommendations
                                                                                                       Multi-Office
U.S. Virgin Islands
                Security and Maintenance of Correctional Facilities, Government ofthe Virgin Islands   96-1-1255   Selected Activities of the Royalty Management System, Minerals Management Service
 91-1-1188                                                                                                         (9/30/96) 2 Recommendations
                (8/29/91) 16 Recommendations                                        .
                Prison Overcrowding, Bureau of Corrections (10/28/91) 5 RecommendatIOns                96-1-1267   Inspection and Enforcement Program and Selected Related Activities, Bureau of Land
 92-1-90                                                                                                           Management (9/30/96) 4 Recommendations
                Property Management Functions, Police Department, Government ofthe Vlrgm Islands
 94-1-248                                                                                              99-1-782    Processing Notifications for the Stripper Oil Well Property Royalty Rate Reduction Program,
                (1/24/94) I Recommendation                . . '                                 . .
                Selected Administrative Functions, St. CrOIx Intenm HospItal, Government ofthe Vlrgm               Minerals Management Service (8/31/99) I Recommendation
 95-1-52                                                                                               00-1-300    Supporting Documentation for Operators Participating in the Stripper Oil Well Property
                Islands (10/31/94) 2 Recommendations                 . .
                Small Business Development Agency, Government ofthe Vlrgm Islands (1/15/97)                        Royalty Rate Reduction Program, Bureau of Land Management and Minerals Management
 97-1-257                                                                                                          Service (3/27/00) 2 Recommendations
                4 Recommendations
                Supplemental Food Program for Women, Infants and Children, Department of Health,
 97-1-590
                Government of the Virgin Islands (3/24/97) I RecommendatIOn                            National Park Service
                Business Licensing Fees, Department of Licensing and Consumer Affairs, Government of
 98-1-293
                the Virgin Islarids (2/27/98) 3 Recommendations                            . .         98-1-406    Follow-up ofRecommendations Concerning Utility Rates Imposed by the National Park
                Unemployment Insurance Program, Department ofLabor, Government ofthe Vlrgm Islands
 99-1-148                                                                                                          Service (4/15/98) 5 Recommendations
                 (12/18/98) 9 Recommendations                                                          99-1-916    Auditors Report on National Park Service Financial Statements for Fiscal Years 1997 and
                                                                                                                   1998 (9/17/99) 3 Recommendations
                                                                                                       99-1-959    Deferred Maintenance, National Park Service (9/30/99) I Recommendation
                                                                                                       00-1-621    Independent Auditors Report on National Park Service Financial Statements for Fiscal Year
                                                                                                                   1999 (8/8/00) 2 Recommendations

                                                                                                       Office of the Secretary
                                                                                                       98-1-712    Receipt and Expenditure ofFunds by the Utah Reclamation Mitigation and Conservation
                                                                                                                   Commission for Fiscal Years 1996 and 1997 (9/30/98) 7 Recommendations
                                                                                                       99-1-381    Additional Controls Needed Over the Data Processing Environment at the U.S. Geological
                                                                                                                   Survey Reston Enterprise Data Services Center (3/25/99) 2 Recommendations




                                                                                                           Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
           Semiannual Report to the Congress: October 1, 2000                       March 31, 2001
                                                                                                                                                       51
                                                       50
                                                                                                                                                                                      ----------,...

Office of the Special Trustee for American Indians                                                                                             Appendix 8

97-1-196    Statement of Assets and Trust Fund Balances on September 30, 1995, of the Trust Funds                     Statutory and Administrative Responsibilities
            Managed by the Office of Trust Funds Management (12/13/96) 16 RecommendatIOns
97-1-1167   Judgment Funds Awarded to the Turtle Mountain Band of Chippewa Indians (9/22/97)          The Inspector General Act of 1978 (Public Law 95-452) sets forth specific requirements for
            1 Recommendation                                                                          semiannual reports to be made to the Secretary for transmittal to the Congress. A selection of
97-1-1168   Judgment Funds Awarded to the Navajo Nation (9/22/97) 1 Recommendation              .     other statutory and administrative responsibilities and criminal and civil investigative authorities
97-1-1169   Judgment Funds Awarded to the Papago Tribe of Arizona (9/15/97) 2 RecommendatIOns         of the OIG follows:
98-1-206    Financial Statements for Fiscal Year 1996 for Office of the Special Trustee for Amencan
            Indians Tribal Individual Indian Monies and Other Special Trust Funds Managed by the                               statutory Audit Responsibilities
            Office of Tru;t Funds Management (1/23/98) 12 Recommendations
                                                                                                      Statutory audit responsibilities include:

                                                                                                       P.L. 96-510      Comprehensive Environmental Response, Compensation and Liability Act of
                                                                                                                        1980 (Superfund)
                                                                                                       P.L.   97-357    Insular Areas Act of 1982
                                                                                                       P.L.   99-499    Superfund Amendments and Reauthorization Act of 1986
                                                                                                       P.L.   101-576   Chief Financial Officers Act of 1990
                                                                                                       P.L.   103-382   Improving American Schools Act of 1994
                                                                                                       P.L.   104-208   Federal Financial Management Improvement Act of 1996
                                                                                                       P.L.   104-316   General Accounting Office Act of 1996, Section 108, "To Require DOl-OIG
                                                                                                                        To Audit the Central Utah Project Cost Allocation"
                                                                                                       P.L. 105-277     Office of National Drug Control Policy Reauthorization Act of 1998
                                                                                                       P.L. 104-156     Single Audit Act of 1996
                                                                                                       P.L. 106-398     Government Information Security Reform Act, Title X, subtitle G of the
                                                                                                                        Defense Authorization Act
                                                                                                       P.L. 106-408     Fish and Wildlife Programs Improvement and National Wildlife Refuge
                                                                                                                        System Centennial Act of 2000
                                                                                                       P.L. 106-554     Consolidated Appropriations Act

                                                                                                                               Administrative Responsibilities
                                                                                                      Office of Management and Budget circulars and bulletins:

                                                                                                              A-50        "Audit Followup"
                                                                                                              A-87        "Cost Principles for State, Local, and Indian Tribal Governments"
                                                                                                              A-123       "Management Accountability and Control"
                                                                                                              A-131       "Value Engineering"
                                                                                                              A-133       "Audits of States, Local Governments, and Non-Profit Organizations"
                                                                                                              97-01       "Form and Content of Agency Financial Statements" (Bulletin)
                                                                                                              01-02       "Audit Requirements for Federal Financial Statements" (Bulletin)




      Semiannual Report to the Congress: October 1, 2000                      March 31, 2001              Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                      52                                                                                                  53
                                             Appendix 9
                   Cross-References to the Inspector General Act

Inspector General Act, as amended

Section 4(a)(2)              Review of Legislation and Regulations                       N/A*                                       General Information
Section 5(a)(1)              Significant Problems, Abuses, and Deficiencies               3-19

Section 5(a)(2)              Recommendations for Corrective Action with Respect
                             to Significant Problems, Abuses, and Deficiencies            3-19

Section 5(a)(3)              Significant Recommendations from Agency's Previous
                             Reports on which Corrective Action has not been                      Send Requests for Publications to:
                             Completed                                                   48-52

Section 5(a)(4)              Matters Referred to Prosecutive Authorities and Resulting
                             Convictions                                                     11   U.S. Department of the Interior
                                                                                                                                          (202) 208-4599
                                                                                                  Office ofInspector General
Section 5(a)(5)              Matters Reported to the Head of the Agency                  N/A*     1849 C Street, NW
                                                                                                  Mail Stop 5341, MIB
Section 5(a)(6)              List of Audit Reports Issued during the Reporting Period    21-33    Washington, D.C. 20240
Section 5(a)(7)              Summary of Significant Reports                               3-19

Section 5(a)(8)              Statistical Table - Questioned Costs                           36
                                                                                                  Facsimile Number:                       (202) 208-4998
Section 5(a)(9)              Statistical Table - Recommendations that Funds be
                             put to Better Use                                              37

Section 5(a)(10)             Summary of Audit Reports Issued before the                           World Wide Web Site:                    www.oig.doi.gov
                             Commencement of the Reporting Period for which
                             no Management Decision has been made                        39-47

Section 5(a)(11)             Significant Revised Management Decisions made
                             during the Reporting Period                                 N/A*
Section 5(a)(12)             Significant Management Decisions with which the
                             Inspector General is in Disagreement                        N/A*

Section 5(a)(13)             Information Described Under Section 05(b) of the Federal
                             Financial Management Improvement Act of 1996                N/A*




*NIA: Nothing to report this period.




    Semiannual Report to the Congress: October 1, 2000 - March 31, 2001
                                                    54
www.doi.gov
www.oig.doi.gov
